<html>
<title> - HEARING ON THE ROLE OF INTERCITY PASSENGER RAIL DURING NATIONAL EMERGENCIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         THE ROLE OF INTERCITY
                         PASSENGER RAIL DURING
                          NATIONAL EMERGENCIES

=======================================================================

                                (110-97)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                  FEBRUARY 11, 2008 (New Orleans, LA)

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure





                  U.S. GOVERNMENT PRINTING OFFICE
40-886 PDF                WASHINGTON : 2008
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001






             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               VACANCY
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
VACANCY

                                  (ii)



     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
GRACE F. NAPOLITANO, California      WAYNE T. GILCHREST, Maryland
NICK LAMPSON, Texas                  STEVEN C. LaTOURETTE, Ohio
ZACHARY T. SPACE, Ohio, Vice Chair   JERRY MORAN, Kansas
BRUCE L. BRALEY, Iowa                GARY G. MILLER, California
TIMOTHY J. WALZ, Minnesota           HENRY E. BROWN, Jr., South 
NICK J. RAHALL II, West Virginia     Carolina
PETER A. DeFAZIO, Oregon             TIMOTHY V. JOHNSON, Illinois
JERRY F. COSTELLO, Illinois          TODD RUSSELL PLATTS, Pennsylvania
EDDIE BERNICE JOHNSON, Texas         SAM GRAVES, Missouri
ELIJAH E. CUMMINGS, Maryland         JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            LYNN A. WESTMORELND, Georgia
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)













                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bertini, Jr., Dr. John...........................................    25
Cannon, Glenn, Assistant Administrator, Disaster Operations 
  Directorate, Federal Emergency Management Agency...............     4
Ebbert, Colonel Terry, Director of Homeland Security, City of New 
  Orleans........................................................     4
Moller, Jeff, Executive Director, Safety and Operations, 
  Association of American Railroads..............................    25
Nagin, Hon. C. Ray, Mayor, City of New Orleans...................     4
Parsons, Karen, Executive Director, Southern Rapid Rail Transit 
  Commission.....................................................    25
Phelps, Richard, Vice President for Transportation, Amtrak.......    25
Santos, Jr., Colonel Pat, Assistant Deputy Director for 
  Operations, Governor's Office of Homeland Security and 
  Preparedness, State of Louisiana...............................     4
Thomas, Wayne C., Vice President for Homeland Security and 
  Emergency Management, Innovative Emergency Management..........    25

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    48
Jefferson, Hon. William J., of Louisiana.........................    54

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bertini, Jr., Dr. John E.........................................    57
Cannon, Glenn M..................................................    59
Ebbert, Colonel Terry J..........................................    65
Moller, Jeff.....................................................    68
Nagin, Hon. C. Ray...............................................    76
Parsons, Karen...................................................    81
Phelps, Richard..................................................    88
Santos, Jr., E. Pat..............................................   106
Thomas, Wayne C..................................................   109

                       SUBMISSIONS FOR THE RECORD

Moller, Jeff, Executive Director, Safety and Operations, 
  Association of American Railroads, response to question from 
  Rep. Brown.....................................................    75

                        ADDITIONS FOR THE RECORD

New Orleans City Council, Arnie Fielkow, President, Council 
  Resolution R-06-301............................................   116



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    HEARING ON THE ROLE OF INTERCITY PASSENGER RAIL DURING NATIONAL 
                              EMERGENCIES

                              ----------                              


                       Monday, February 11, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
       Subcommittee on Railroads, Pipelines, and Hazardous 
                                                 Materials,
                                                   New Orleans, LA.
    The Subcommittee met, pursuant to call, at 10:15 a.m., in 
the Union Passenger Terminal, 1001 Loyola Avenue, New Orleans, 
Louisiana, Hon. Corrine Brown [Chairman of the Subcommittee] 
presiding.
    Ms. Brown. Will the Subcommittee on Railroads, Pipelines, 
and Hazardous Materials please officially come to order.
    The Subcommittee is meeting today to hear testimony on the 
role of intercity passenger rail during national emergencies.
    Our Ranking Member, Mr. Shuster, planned to join us today 
and is very interested in the needs of the Gulf Coast, but 
unfortunately he is unable to join us due to a flight 
cancellation--that is why we need additional rail.
    [Laughter.]
    Ms. Brown. I want to thank Mayor Nagin and the City of New 
Orleans for hosting today's hearing. The Mayor made it possible 
for the Subcommittee to hold hearings today at this Union 
Pacific Terminal. This station is the major southern hub for 
Amtrak and played an interesting role in the recovery efforts 
from Hurricane Katrina as a temporary jail.
    As you can see, this is a beautiful station that has been 
fully restored by the City and the station's dedicated 
employees. It is one positive example of the progress being 
made in downtown New Orleans.
    Since the tragedy surrounding September 11, emergency 
management and preparations have played an elevated role in the 
daily lives of citizens and governments alike. September 11 and 
hurricanes Katrina and Rita demonstrate the critical role 
intercity passenger rail holds in emergency response 
situations. An intermodal transportation system that offers a 
range of options during any emergency situation must be an 
essential part of any emergency planning.
    Passenger rail offers many benefits during a disaster. It 
can move large numbers of people out of harm's way; it can 
bring critical supplies to needy areas and it offers an 
alternative form of transportation to combat overcrowded 
highways as we witnessed during the evacuation of Houston in 
hurricane Rita. Passenger rail should be a vital component of 
every rail emergency plan and the federal and state governments 
must commit the necessary investments to make this possible. 
While the Federal Emergency Management Agency has made changes 
in their response planning following hurricanes Katrina and 
Rita, it is clear that there is more that we can do to make 
sure passenger rail is fully utilized.
    I hope today to hear the progress that has been made to 
fully restore the Sunset Limited line. The loss of service on 
the Sunset Limited from New Orleans to Pensacola--you know I am 
from Florida--directly impacts the ability of people living 
along the Gulf Coast to respond to emergency situations. 
Further, it limits the ability of people in Florida to ride 
Amtrak to visit family and friends along the Gulf Coast and New 
Orleans. This is a serious problem and I believe that now, over 
two years since the disastrous hurricane season of 2005, we 
should have more answers about when Sunset Limited services 
will be restored.
    I would like to welcome today's panelists and thank them 
for joining us. I look forward to hearing their testimony on 
how passenger rail can be better utilized during national 
emergencies and what Congress and the Federal Government can do 
to make this possible.
    Before we begin testimony, I ask that Members be given 14 
days to revise and extend their remarks and to permit the 
submission of additional statements and material by Members and 
witnesses. Without objection, so ordered.
    I would like to ask unanimous consent that Congressman 
Jefferson be allowed to sit in on the panel and ask questions 
of the witnesses. Without objection, so ordered.
    Mr. Jefferson, I am going to let you make your opening 
remarks at this time and then we will go to the panel.
    Mr. Jefferson. Thank you, Representative Brown.
    I believe this is the first time and the most formal way I 
have ever addressed you, as Representative Brown. To us, she 
goes by a more familiar name, which I will not mention here 
today because we are in these formal circumstances. But she is, 
to us in the Louisiana delegation, like an eighth Member of our 
delegation because even when it came to her own native Florida 
and the issue of the VA Hospital, she stood with New Orleans in 
that fight to make sure the hospital was placed here and was 
not even talked about as being a possible placement for it in 
Florida. So we owe her a great debt. She has been here eight, 
ten times since the storm. I may be shortchanging her a few 
trips. And she has worked on everything from missing children 
during the hurricane to just the basic issues of evacuation.
    And today's hearing, at least in part, is going to deal 
with how we might think about how the intercity transportation 
systems can help us prepare for disasters and for the need to 
move people out in ways that are more effective, more efficient 
and less costly, more safe; and also, how we can, after the 
storms come along, do more to help with our recovery through 
the use of intercity transportation to move people back and 
forth to jobs, to help to restore confidence in our economy and 
all those sorts of things.
    At the end of the day, I think that we can probably just 
say in sum what I would like to say, the very last paragraph of 
my prepared statement and I will submit it, if I might, Madam 
Chairlady, for the record.
    In summary, having an intercity rail in southeast Louisiana 
and even expanding the Sunset Line to Florida helps in many 
areas. It means getting our people to safety in the face of 
terrible storms of the future. It means offering our people 
that do not have the ability to flee to safety a viable option. 
It means a safer commute for those traveling each day. It means 
a connection to our varied communities. It means affordable 
mass transportation for everyone. It means less congestion on 
roads and less pollution in our air. It means business 
development and opportunity. And lastly, it means essentially 
it would be a great deal of help for our recovery.
    I have a statement I prepared, Madam Chair, I would just 
like to submit it for the record if you would permit me to do 
so, so we can get to our esteemed panel.
    And I thank you for the chance to serve with you today on 
this panel and be here for these excellent witnesses.
    Ms. Brown. Thank you, my colleague. And let me just say you 
probably missed the number of times I have been here because I 
have felt really responsible--when I saw Katrina and I saw the 
response of the government, I felt it was necessary not only to 
come here right away, but I went home and organized my 
community and we sent 16 tractor-trailers full of goods and 
services to the community.
    And I have worked very hard to make sure that the VA 
Hospital--and we have meetings on that tomorrow, and in fact I 
just talked to the Chairman and we have the funds in there for 
that hospital and so I am going to make sure we move forward 
with the new VA facility here, working with the community.
    So thank you for having me here and thank the Mayor for 
inviting me.
    And with that, I would like to welcome and introduce our 
first witness. It is Mr. Glenn Cannon, the Assistant 
Administrator for Disaster Operations Directorate, Federal 
Emergency Management Administration.
    The second witness is our Mayor, Mayor Ray Nagin, Mayor of 
the City of New Orleans.
    And the third witness is Mr. Santos, Assistant Deputy 
Director of Operations and Preparation for the State of 
Louisiana.
    And the final witness on the panel is Mr. Terry Ebbert, 
Director of Homeland Security for the City of New Orleans.
    Let me remind the witnesses that under our Committee rules, 
oral statements must be limited to five minutes, but the entire 
statement will appear in the record. We will allow an entire 
panel to testify before questioning the witnesses.
    I am pleased to have all of you here today and I recognize 
Mr. Cannon for his testimony.

 TESTIMONY OF GLENN CANNON, ASSISTANT ADMINISTRATOR, DISASTER 
 OPERATIONS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT AGENCY; 
THE HONORABLE C. RAY NAGIN, MAYOR, CITY OF NEW ORLEANS; COLONEL 
     PAT SANTOS, ASSISTANT DEPUTY DIRECTOR FOR OPERATIONS, 
GOVERNOR'S OFFICE OF HOMELAND SECURITY AND PREPAREDNESS, STATE 
 OF LOUISIANA; AND COLONEL TERRY EBBERT, DIRECTOR OF HOMELAND 
                 SECURITY, CITY OF NEW ORLEANS

    Mr. Cannon. Thank you. Good morning, Madam Chair and 
Representative Jefferson. Thank you for the opportunity to 
discuss with you plans for using rail transportation to support 
emergency evacuations and the challenges of using rail in these 
situations.
    Providing critical planning and resource support to help 
our state and local government partners in the Gulf Coast 
region prepare for the disasters that they face has been one of 
our highest priorities for the past two years.
    One of the activities that we have been most intensely 
engaged in involves the area of evacuation planning. In the 
declared disaster, FEMA's disaster operations, disaster 
assistance and logistics management directorates provide for 
pre-cautionary evacuation and return assistance to at-risk 
populations in accordance with the Stafford Act. However, FEMA 
does not, should not and cannot act alone. FEMA Administrator 
David Paulison often speaks of our commitment to building 
engaged partnerships with our colleagues in state and local 
government. Evacuation planning is one area where this 
commitment is very evident.
    Since hurricanes Katrina and Rita, FEMA has worked with all 
the states in the region to coordinate their diverse evacuation 
plans. Multi-agency teams engaged with Gulf Coast states to 
identify requirements and capabilities and develop plans and 
integrate shelter planning with transportation planning. This 
is what we mean when we say engaged partnerships.
    FEMA is also on the ground. We established an office in 
Baton Rouge to conduct specific evacuation planning for the 12 
coastal parishes of Louisiana. Working closely with our 
federal, state and local partners, this planning effort helps 
ensure the transportation, sheltering, mass care and 
repopulation elements are ready to support Louisiana.
    FEMA is supporting multi-modal evacuation planning 
specifically for Louisiana and the City of New Orleans. A major 
component of this evacuation planning leverages the 
capabilities of Amtrak and intercity rail transport to evacuate 
the New Orleans metropolitan area. Last year, during the 2007 
hurricane season, FEMA entered into a contract with Amtrak to 
provide emergency rail transportation services to help evacuate 
persons from New Orleans to other locations in the Gulf Coast 
region. My written testimony goes into greater detail on this 
arrangement.
    Despite the evacuation planning and related support we have 
provided, there are still challenges that need to be addressed 
regarding rail evacuation planning and readiness for future 
disasters. On a broad scope, there is a shortage of personnel 
with experience in rail transportation issues who are also 
qualified in evacuation planning. States need to use consistent 
planning techniques and methodologies when developing 
activities that will cut across multiple jurisdictions but may 
lack training, funding and personnel to accomplish these tasks. 
And states need to develop and take greater advantage of mutual 
aid agreements, memoranda of understanding and contracts. 
Often, developing these instruments can not occur until near 
the end of the planning cycle, coming after risk assessments, 
gap analyses, capability inventories and concepts of operation 
are well underway.
    In addition to those broad challenges, there are also 
specific rail evacuation challenges. The private ownership of 
railroad right-of-ways poses some challenges. Individual 
agreements are necessary to determine how and when they are 
used and each railroad independently determines when they will 
cease operations in the face of an oncoming hurricane.
    The existence of these agreements and the close cooperation 
of each railroad line in use are critical to achieving 
effective planning. Once the evacuee population has reached the 
destination, receiving state and local governments and 
responders must be able to provide adequate services, such as 
transportation and sheltering. As a result, destinations must 
be mutually agreed upon by the evacuating state, the receiving 
jurisdictions, FEMA and its operational partners and Amtrak.
    To ensure the safety of evacuees, Amtrak has indicated a 
need to include law enforcement officers in each car. However, 
personnel limits will require prearranged agreements for 
additional law enforcement officers to supplement existing 
forces. Availability of personnel during a crisis will always 
be a challenge.
    Regarding special needs evacuees, the typical passenger 
rail car can only transport ambulatory evacuees, and a limited 
number of wheelchair-bound patients not needing medical 
attention or medical staff. Amtrak is not capable of conveying 
special medical needs passengers.
    Finally, there is a cost to being prepared for a potential 
evacuation. Last year, equipment and personnel were 
prepositioned in New Orleans at a cost of approximately 
$700,000.
    The planning efforts we have undertaken with Louisiana 
exemplify the emergency planning envisioned in the National 
Preparedness Guidelines. Our engaged partnership has promoted 
unity of effort resulting in policies, processes and actions 
that have improved overall preparedness. New Orleans is only 
one of many cities and states at risk from hurricanes that can 
take advantage of incorporating passenger rail into their local 
and state emergency efforts. FEMA will continue to closely 
coordinate and support communities across the region and the 
country to facilitate the development of a more robust 
evacuation and response plan to ensure protection of the 
population when disaster strikes.
    I look forward to discussing with you today and in the 
future the opportunities and challenges raised by the role and 
the use of rail in the emergency management system.
    Thank you.
    Ms. Brown. Mayor.
    Mayor Nagin. Thank you. To Chairwoman Brown, Congressman 
Jefferson and other Members of the House Transportation and 
Infrastructure Subcommittee on Railroads, Pipelines and 
Hazardous Materials, thank you for choosing New Orleans and 
thank you for choosing this site for this hearing. We are 
particularly pleased to host you here at the Union Passenger 
Terminal. It is an historic building which currently plays an 
important intermodal role in our transportation network and 
will play a critical role in future evacuations, emergency 
evacuations.
    I am not going to read all of my testimony, but I will 
cover a few of the highlighted points of this testimony.
    We are in recovery, Madam Chair, and----
    Ms. Brown. Mr. Mayor, I'm sorry, would you bring your mic a 
little closer?
    Mayor Nagin. Yes, ma'am.
    Ms. Brown. Thank you.
    Mayor Nagin. We are in recovery, Madam Chair, and 2008 for 
us is going to be a tipping point in our recovery. We have lots 
of work to do but we are starting to see a flow of dollars into 
our community to accelerate our recovery. We have access to a 
state revolving loan fund, the initial portion of a $260 
million bond that was approved by voters before the storm; we 
have access to that since we have gotten our bond rating back 
up to a stable rating. In total, we have access to more than a 
billion dollars for our recovery efforts and our citizens are 
engaged in this process and working with us. Just in street 
work alone and roads and bridge improvements, we have $363 
million that we are spending.
    We also have a significant number of building permits that 
our citizens are giving us strong indications that this 
recovery will be a full recovery. We have issued over 81,000 
building permits for a value of $5 billion and we have 
another--that is just in restoration work. We have another 
billion dollars in permits that we have issued for new 
construction. Experts predict that this region will spend 
anywhere from 60 to 100 billion dollars in its recovery.
    Our airport, Louis Armstrong International Airport, is also 
rebounding. It currently provides 78 percent of the seats 
offered pre-Katrina, 84 percent of pre-Katrina flights and we 
are going to 88 percent of pre-Katrina destinations that we had 
previously.
    Our port is now back to 2002 levels, above 2005. So we are 
real excited about that.
    And our tourist industry is really showing some strong 
signs of recovery. We estimate or UNO estimates that this year, 
we will do about $4.5 billion in tourist-related business. That 
is important because in 2004, it was a record year for us, we 
had never been that high, we had over 10 million visitors and 
they spent about $4.9 billion.
    We are on a roll, Madam Chair. We just had the BCS 
Championship, the NBA All Stars this weekend, All Star weekend. 
We have--the President has announced an international summit 
with Mexico and Canada. We have the tenth anniversary of V-Day 
with Oprah Winfrey and Jane Fonda and all those folk coming in. 
Right after that, French Quarter Festival, Jazz Fest and 
Essence. And I forgot about a little party we throw called 
Mardi Gras, which we just finished up. So we are definitely 
moving in a very positive direction.
    People ask me all the time how do you measure the success 
of a recovery of something that has happened. And it is all 
about people. A city if about people, a state is about people. 
And about 71 percent of our people are back, we are about 
320,000 people, but there is a swell during the day that is 
very exciting for us, where people are coming in and working on 
their homes, working on their businesses. And we think our 
population is back to about 365,000 during the day, down from 
455,000 pre-Katrina. So we are really excited about that.
    On evacuation planning, we need to assure our citizens that 
we have the capacity to react quickly and responsibly. And 
after hurricane Katrina, my Office of Homeland Security 
developed a city-assisted evacuation plan with a major 
component centered on rail services in the Union Passenger 
Terminal. Our strategy is the use rail assets to move our 
elderly and those with minor medical conditions from the city. 
We think that this is important.
    We were able to incorporate the use of rail in our 
evacuation plans in the past two hurricane seasons. In 2006, 
our plans called for rail to take our citizens to Jackson, 
Mississippi and we were hoping that 6000 people could take 
advantage of that.
    We strongly feel that the use of rail is critical to the 
successful future evacuation of the city of New Orleans. And 
Colonel Ebbert will touch on that in a minute.
    We also ask you to support full funding for Amtrak 
services, particularly from coastal cities such as New Orleans 
and other coastal cities. This would provide important regular 
passenger rail transportation and will play a critical role in 
emergency transportation planning and execution across the 
city. And of course, we would like to see the Amtrak Sunset 
Limited back so we can get back to Jackson, Florida. And 
finally, we are seeking matching funds for about $80 million, 
it is a three-year initiative for rail fortification and 
startup costs for a commuter rail line from this UPT center to 
Baton Rouge, which will serve as another evacuation asset.
    Madam Chair, that concludes my comments. I would like to 
thank you once again for being here and for all your hard work 
after the storm. You have been a true champion along with 
Congressman Jefferson, and we thank you for being here and 
helping us to bring back one of the most distinctive cities in 
the country--New Orleans.
    Thank you.
    Ms. Brown. Mr. Santos.
    [Applause.]
    Colonel Santos. Good morning, Madam Chair, Congressman 
Jefferson. It is an honor to be here today to provide this very 
critical and important testimony.
    Hurricanes Katrina and Rita exposed significant flaws in 
federal, state and local preparedness and response capabilities 
to catastrophic events. Numerous after-action reviews were 
conducted in the months following the 2005 hurricanes involving 
stakeholders at every level of government. Beginning in 2006, a 
concerted effort has been made by the State of Louisiana in 
cooperative spirit with local governments, including non-
governmental organizations, industry, and our federal partners 
to formulate improved planning, coordination and disaster 
management capabilities during future incidents.
    One such lesson learned was the need to develop scalable 
and flexible plans with adequate resources to assist those 
citizens who desire to evacuate during an emergency, but lack 
the means to do so. The City of New Orleans has developed a New 
Orleans City Assisted Evacuation Plan that addresses this very 
issue. It is estimated that if an evacuation is called, 
approximately 25,000 citizens could potentially require 
emergency transportation out of the New Orleans area within a 
54-hour window.
    It is clearly evident that to evacuate that number of 
citizens in such a short time period, every available means of 
transportation has to be considered. The State Department of 
Transportation and Development, who has the primary 
responsibility for emergency support function, ESF-1, 
transportation, has secured a commercial bus contract for some 
700 coach buses. These commercial buses, in addition to the 
state school buses, will provide a large percentage of the 
critical transportation needs for citizens that require both 
transportation and sheltering across all of the at-risk 
parishes in Louisiana. We are aware and do currently have 
concerns that the contracted bus vendors, depending on the 
situation, may not be able to provide the total number of buses 
when and where needed in Louisiana. Those citizens considered 
general population evacuees that do avail themselves of this 
means of transportation can expect a rather long trip, 
approximately 5 to 10 hours perhaps, to shelters located in 
north Louisiana or to neighboring states such as Arkansas or 
Alabama.
    New Orleans Emergency Management officials suggested in 
2006 that we consider Amtrak as a transportation asset that 
could be used for senior citizens and individuals that may 
require some special assistance. The emphasis is to place these 
citizens in a low stress environment to minimize the 
psychological and physical impact that occurs during a high 
tension event. The concept was discussed and refined and a 
request was made from the state to FEMA to formally ask for the 
use of this asset. Negotiations between FEMA and Amtrak 
produced a signed contract to be triggered in the event a 
Category 3 storm or higher threatens the City of New Orleans. A 
Memorandum of Agreement was signed between Louisiana and the 
State of Mississippi to allow the trains to use the Jackson 
train station as a transload site. At that point, evacuees from 
the train would transfer to commercial buses which would take 
the evacuees to shelters located back in north Louisiana.
    In 2007, the plan was modified to transport ambulatory 
senior citizen evacuees to Memphis, where the State of 
Tennessee has agreed to shelter up to 6000 Louisiana citizens 
arriving by train. Two Amtrak trains, each train consisting of 
24 rail cars, carrying 1500 citizens, with limited wheelchair 
capability, would make two trips each from New Orleans to 
Memphis starting at 48 hours prior to the projected onset of 
tropical force winds, referred to as H-48.
    During hurricane season, the speed at which some storms 
develop may not allow state and federal entities to activate 
their transportation support plans in time to be effective. Air 
and bus assets must be activated as early as H-100 hours in 
order to maximize their potential effectiveness. Amtrak, with 
its prestaged transportation resources in the vicinity, could 
make an immediate impact in this type of environment.
    The use of rail is an integral part of the overall 
transportation evacuation plan in Louisiana. It was identified 
early in the planning process for an evacuation of critical 
transportation need citizens within the southeastern parishes 
of Louisiana, which includes New Orleans, as the use of bus and 
rail alone will not provide the necessary transportation 
resources potentially required. As a result of this potential 
shortfall, a plan was developed by FEMA for the use of air 
assets to supplement bus and rail to transport as many as 15 to 
20,000 evacuees out of the state.
    All of the planning in the 2007 Gulf Coast season was 
focused on New Orleans as the origin rail station and Memphis 
as the destination rail station. During one of the hurricanes 
this past season, as both Louisiana and Texas at one point were 
being threatened simultaneously, Texas inquired about the 
potential use of emergency rail transportation services for 
their general population. Due to the lack of prior planning, 
this option was not pursued. There is a need for a coordinated 
national emergency transportation plan.
    Our recommendation is that FEMA pursue a regional rail 
evacuation concept with a flexible multiple origins and 
destinations contract with Amtrak that is in line with the FEMA 
Region's responsibilities and Amtrak's capabilities. There are 
other variables that could impact having only one origin or 
destination and without prior preplanning for other options, it 
could reduce Amtrak's capabilities. By planning different 
scenarios, FEMA and the states will be better prepared for any 
unusual situation that could disrupt operations. We see this as 
giving FEMA and the states a broad scope of coverage for 
emergency rail evacuation to complement their multi-state 
responsibilities. As we continue preparations for the upcoming 
2008 hurricane season, Louisiana will once again be requesting 
through FEMA an Amtrak contract.
    That concludes my statement.
    Ms. Brown. Colonel.
    Colonel Ebbert. Madam Chair, Congressman Jefferson, I thank 
you for the opportunity to testify before the Committee on 
Transportation and Infrastructure's Subcommittee on Railroads, 
Pipelines, and Hazardous Materials.
    I am Colonel Terry Ebbert, the Director of Homeland 
Security for the City of New Orleans and am responsible for the 
police, fire, emergency medical services, criminal justice and 
the Office of Emergency Preparedness. I have served in this 
position for the past five years.
    The City of New Orleans, like all of our large urban areas, 
has great public safety planning and operational challenges. We 
at the local level have limited resources available to deal 
with catastrophic incidents. Our planning is based upon our 
capabilities and the requesting of additional state and federal 
resources. Transportation evacuation planning was, and 
continues to be, of great concern to me and my departments.
    New Orleans is the only major urban area in the United 
States that has no authorized federal or Red Cross support for 
sheltering in place during major hurricanes. This situation 
requires multi-state and parish planning for mandatory general 
population evacuation. As you are aware, mandatory is not 
forced evacuation. My police officers will not break down doors 
and remove citizens from their homes by force. We must then 
create a plan that the citizens believe will work, to ensure 
their cooperation. Several major milestones must be completed 
to successfully evacuate 1.3 million people from southeast 
Louisiana:
    1. A coordinated regional plan for self-evacuation
    2. A City-assisted evacuation plan to move 25,000 citizens 
without personal transportation
    3. A sheltering plan that supports both types of evacuation 
plans
    4. A public education plan that convinces all citizens that 
it is in their best interest to work with public government and 
plan to evacuate.
    To accomplish these very difficult goals requires close 
coordination of planning at every level of government that 
utilizes all available resources to the maximum capability. In 
the aftermath of hurricane Katrina, we were criticized for not 
using rail transportation. I tell you, as I did both the House 
and Senate investigative committees, that the non-use was not 
the result of not attempting to plan for this utilization, The 
problem remained that we were a local agency with no capability 
to coordinate a memorandum of understanding with federally 
subsidized Amtrak.
    During the past two years, I have continued to work closely 
with my state and federal partners to ensure that we could and 
will utilize rail transportation to move a major portion of our 
most fragile, elderly and young citizens. During the past two 
years, hundreds of planning hours have been dedicated to this 
effort and we have been able to successfully obtain dedicated 
rail resources for 2006 and 2007. These two plans were 
completely different and we are getting ready to start the 
process from scratch for a third time. This is a very difficult 
process that should not have to be repeated every year.
    The question that keeps reoccurring to me is ``Where is the 
National Rail Transportation Plan?'' A national rail plan 
should be developed on a regional basis to enable all urban 
areas to take advantage of railroads in evacuation planning. 
Leaving rail on the sideline, or with only limited capability, 
and moving large numbers of citizens by commercial and military 
air appears to be a large waste of taxpayers' money. Federal 
contracting of commercial buses to be placed on call and moved 
into an evacuation area prior to a storm is problematic due to 
traffic and availability. Trains are mobile and plans can be 
developed to move resources to any area requiring assistance. 
Trains are unaffected by vehicle traffic congestion. Trains are 
the fastest and most comfortable mode of transportation to move 
elderly and those with minor medical problems. Moving large 
numbers of people by train makes operational and fiscal sense.
    Predesignated shelters supported by rail transportation 
moving over unrestricted passenger and freight lines is a safe 
and affordable and dependable means of evacuation. It is 
unrealistic to expect southeast Louisiana to successfully 
evacuate 1.3 million people in a limited 48 hour window without 
extensive use of rail capability. To accomplish this task, 
emergency rail assets must be made available to all local urban 
areas. To do this, we need a national framework to help make 
this happen. Those of us at the local level look to your 
assistance in helping us on this mission.
    Thank you very much for your support in examining the 
increased capability of railroad evacuation operations. I will 
be happy to take any of your questions.
    Ms. Brown. Thank you and thanks to the panel.
    When the Mayor was speaking, there was a feeling that we 
wanted to give him a clap, and all of the participants, so this 
is a time that you can do that----
    [Applause.]
    Ms. Brown. --before we start asking the hard questions.
    First of all, Mr. Cannon, in your testimony, it seemed to 
me that you had some questions about whether or not the 
disabled or the infirm could benefit from the train 
participation as opposed to cars or buses. Now we all know what 
happened with those cars and buses and all the congestion.
    Recently I traveled to Europe, I flew from Washington to 
Brussels, I got on a train and went from Brussels to downtown 
Paris, 200 miles, one hour and 15 minutes. I mean, you know, 
during the 1950s we invented the highway system. It is now time 
for us to move forward with a functional rail system, one that 
can move people, goods and services. One of the things, in 
Europe, in many areas, they do not let the trucks go through 
the community or they piggyback, they put the truck on the 
trains and move them out.
    So can you respond to that, your feelings about--I guess my 
question is what is your concern about moving the disabled on 
the trains?
    Mr. Cannon. It is the present configurations of the trains. 
The people that are in the intermodal plan for evacuation are 
the elderly who are ambulatory, who can move on their own. 
There is a very small wheelchair capacity on the existing rail 
cars, so we could take some wheelchair patients and some 
patients who use oxygen but who carry it with them and take it 
with them. But stretcher-bound patients, people in need of 
respirators and those types of patients cannot travel on the 
train.
    So the plan for the city and the state includes another 
portion where they will be transported in a different manner 
and not by bus, but by air. Now they will have to be moved by 
ambulances to the transportation center and then they'll be 
triaged and then appropriately moved out utilizing air 
resources.
    But it is just the configuration of the rail car. It is not 
that if it was properly configured you could not--and you had 
the right crews of medical support--you could use them. That is 
not the issue, it is that you cannot use them as they are 
presently designed.
    Ms. Brown. Mayor.
    Mayor Nagin. As far as?
    Ms. Brown. Did you want to respond to that?
    Mayor Nagin. I think Colonel Ebbert has studied this on a 
pretty detailed level.
    Ms. Brown. Colonel.
    Colonel Ebbert. We looked, in 2006, in fact went to several 
manufacturers who believe they can convert all their rail cars 
into an evacuation car for even stretcher patients for about 
half a million dollars a car. That seems expensive, but when 
you utilize it across the nation as a mobile resource and 
bounce it against the cost of flagging one C-17 military 
aircraft to move people, it would seem, over time, to become a 
very efficient way to move large numbers of non-ambulatory 
patients. So I agree that we need to configure some of these 
cars properly because currently a passenger is not capable.
    The second thing is we as a city are tasked with--one of 
the only cities being tasked by the Justice Department to 
ensure that our evacuation plans are in accordance with the 
Americans with Disabilities Act, which causes us problems when 
we utilize trains that are not capable of meeting those 
standards and also buses that do not meet those standards.
    Ms. Brown. Well, we all--everybody in this room has to feel 
very strongly that we have to have a plan for the elderly and 
the disabled. We cannot let what happened happen again, never, 
on our watch. And so we need to move forward with planning and 
implementation.
    And with that, Mr. Cannon, if done appropriately, do you 
believe intercity passenger rail can help or hinder evacuation 
efforts?
    Mr. Cannon. No, I actually think it is a great help to 
evacuation efforts. And as you heard Colonel Ebbert say, we are 
beginning the process now with the renegotiation for 2008, and 
what we are looking at is the entire Gulf region and adding in 
those other metro areas and not just New Orleans. So we are 
taking the lessons learned the last two years, 2006 and 2007.
    And transportation evacuation, I will just comment, is only 
one of those lessons learned that we are taking from here. But 
it is almost like getting a use of the taxpayers' dollars 
twice. Because things that we have invested in heavily in 
Louisiana can now be transferred from Texas to Florida without 
any difficulty. And I can give you a very clear example of 
that.
    During hurricane Dean, the Category 5 that was approaching 
Texas, there was a need for air evacuation that had not been 
preplanned. There was a very short time. It was to move 25,000 
people, the request came in on Saturday to be able to move them 
on Monday. How would we do that? Well, we took the 
transportation planning unit from Louisiana and the Baton Route 
warm cell and we transferred it over to Texas and we were able 
to use the planning structure and the template and the model 
that had been developed here and transferred it over there.
    And so when I talk about the use of the investment of 
taxpayers' dollars and the transferability of models, much has 
come from the last two years of the work here. While some 
people may be critical of the fact that we put so much into 
this state, it is not just this state. It is a benefit across 
the Gulf coast and eventually the rest of the country.
    So yes, very plainly, I support and we support the idea of 
rail in the urban areas.
    Mayor Nagin. Madam Chair, if I could make one point.
    Ms. Brown. Yes, Mr. Mayor.
    Mayor Nagin. Make sure that what Colonel Ebbert was 
pointing out was that it seems as though--and we do not mind 
being kind of the test case for a lot of this and we hope that 
it can be shared with the rest of the country. But one of our 
frustrations is that it is an annual negotiating event. We have 
had enough learning to go on and it would be great if it could 
be a multi-year commitment so that we in the City of New 
Orleans, Jacksonville, any of the other coastal cities, would 
know that this service is available to them and they would not 
have to be scrambling around. I mean this if February, our 
hurricane season starts in June and we are still not certain 
about what we are going to have going forward.
    Ms. Brown. Well, Mr. Cannon, would you believe that--well, 
for the past few years, I have been struggling because the 
administration's budget has come in zero funding for Amtrak, 
and this year it is an improvement, it is $900 million, but at 
$900 million, it would actually close the system down. Comment.
    Mr. Cannon. Madam, I really cannot comment on the budget. I 
can comment on two points. Our goal is to have this contract in 
place before June 1, although it will be again different than 
it was in 2007 and 2006 because of the expansion into the Gulf.
    Secondly, if in fact there was a national plan where rail 
evacuation was part of the national railroad operation, that 
would certainly make this task a lot easier.
    Ms. Brown. I'm going to go to Mr. Jefferson and then I have 
additional questions. Mr. Jefferson.
    Mr. Jefferson. Thank you, Madam Chair.
    What prevents a national plan being put into place, Mr. 
Cannon, in your judgment? What is limiting this effort?
    Mr. Cannon. I really can't speak for Amtrak. I can tell you 
that the way FEMA works is that we coordinate the resources of 
the federal government through something we call inter-agency 
planning. And we see what each piece brings to the table, which 
is why we use the military, Northcom and Transcom, to do the 
air piece. And we have dealt with Amtrak on this very specific 
piece, but there needs to be a larger mission, if in fact we 
are going to talk about a national rail program. And that comes 
from the national rail program.
    Mr. Jefferson. Well, does there need to be some new 
authority in law to accomplish this, or just cooperation 
between the various parties?
    Mr. Cannon. No, I think, as with many things, there needs 
to be a funding source and a new authority with the required 
mission. There are many things we could do if we had the 
resources to do it.
    Mr. Jefferson. When I say new authority, I mean new laws to 
be put in place. Is that what you mean, the same thing?
    Mr. Cannon. I understand; yes, sir.
    Mr. Jefferson. Okay, so what would these new laws entail?
    Mr. Cannon. I was speaking specifically about the Federal 
Railroad Administration and what they see as their areas of 
responsibility. If Congress makes evacuation planning and 
utilization part of their responsibility, they will bring that 
to the table. But right now, that is not part, so they are 
doing the best they can with the resources they have.
    Mr. Jefferson. So without that, you are limited to this one 
year plan the Mayor talks about and Mr. Ebbert complains about, 
that cities have to go through, and I guess states too, year by 
year?
    Mr. Cannon. What it means is that each one--well, yes, in 
the sense that each area has to be planned individually for the 
resources that are available in that area.
    As I said earlier, one of the more difficult parts of rail 
transportation--and I think I heard one of my colleagues 
mention it here--is the use of both passenger lines and freight 
lines. All those lines are owned by separate and distinct 
railroads and so there have to be agreements in place that we 
run down locally in the planning process to make that happen. 
If there was in fact a national program that made that happen, 
it would make our work a lot easier.
    Mr. Jefferson. Now let me ask you, if we were just trying 
to judge where we are now compared to where we were before 
2005, would you say we are better off now with respect to the 
capacity to use rail to evacuate people out of harm's way now 
than we were in 2005 before Katrina?
    Mr. Cannon. We are better off in New Orleans and Louisiana 
because we have done the very special particular work that is 
necessary for this area and this region. I could not say the 
same thing for another Gulf Coast community, but our plan--we 
are changing our whole planning focus from now New Orleans 
centric to Gulf Coast centric. So yes, it is better here than 
it was pre-2005.
    Mr. Jefferson. How much better?
    Mr. Cannon. Much better, much better.
    Mr. Jefferson. Quantify that for me.
    Mr. Cannon. The plan is in place to evacuate 6000 people by 
rail that did not exist prior to that. So it has come a long, 
long way since then.
    Mr. Jefferson. And that is a plan we can rely on right now 
today.
    Mr. Cannon. I believe that is a very solid plan.
    Mr. Jefferson. Do you feel the same way, Colonel?
    Colonel Ebbert. I feel that we have come a very long way, 
Congressman. I want to reiterate though I believe you need a 
national framework. Because of the complexities of the planning 
process, the ones that were just addressed, the use of freight 
rail to push Amtrak over, without that capability, it limits 
the options of sheltering and where you can move trains to and 
locations. We need some national model that when there is an 
emergency declaration, that somebody somewhere has laid out, 
that allows Amtrak to utilize those lines that are most 
efficient and most effective for each local community.
    The second thing is that we need it on a national level 
because it does not make sense to spend $700,000 to park trains 
in New Orleans when there are no trains in Mobile, there are no 
trains in Pensacola, Corpus Christi or anywhere else. This is a 
mobile capability. So if we look at it as a national resource, 
the valuation of this comes down significantly and the cost, 
spread over the nation, becomes much more easily acceptable.
    Ms. Brown. I think what we will do is I think there are 
people here from the freight rail, we will pose that to them, 
because even though it is not a written agreement, I think it 
is an informal agreement in case of an emergency, the freight 
will yield to the passenger rail to move people out of the 
area. But we will get that on record. Is that not the case, Mr. 
Cannon?
    Mr. Cannon. I am not aware, ma'am, of that.
    Mr. Jefferson. Madam Chair, one last thing, if I might, 
just to ask Mr. Santos and to ask the entire panel, as we do, 
given the answer Mr. Cannon has given about the need for a 
national--for new authority on the national level, does anyone 
have a suggestion to the Committee as to what specific 
authority ought to be granted in this area that this Committee 
could go back and perhaps work to get this specific thing done 
so that--it appears to be central to what we are talking about 
here.
    So have you thought, Mr. Santos, about what the specific 
language ought to be and what specific authority is needed to 
get this whole issue of planning worked out, so that we can 
have a reasonable plan that lasts more than one year, and all 
the rest?
    Colonel Santos. Congressman, I believe after reviewing the 
brand new national response framework that came out I believe 
on January 22, that describes how our nation is organized and 
the roles and responsibilities at the state, the local and 
federal level, that this responsibility should perhaps rest 
with FEMA as the entity that the local and state emergency 
management across all of the United States, all the states, 
look to for assistance.
    You have got to keep in mind, all emergencies are local. So 
what happens here in Orleans Parish and all the parishes in 
Louisiana, we work very closely at the state to help them to 
see where the gaps are, to see what their needs are. And once 
we find those, then we at the state level work very hard to try 
and fill those resources. When we reach a point where it 
exceeds even the state's capability, that is where we look to 
our FEMA partners to come in, who has the resources across all 
of the federal partners and entities, to bring in those 
resources that we need. We see rail as one of those assets that 
should fall under where they can help control, help design and 
put into place a plan that could be used from coast to coast.
    So as far as the verbiage goes, you know, the verbiage in 
our mind I believe would be one that they have the authority to 
work with Amtrak and all the different entities of rail out 
there, to bring them under in a time of emergency, so that we 
can have a unified, collaborative plan that will work wherever 
it is needed.
    Mr. Jefferson. Thank you, Madam Chair.
    Ms. Brown. Mr. Mayor, in your testimony, you stated that 
3.6 million people visited New Orleans in the first six months 
of 2007, nearly the same amount of people visited in 2006. Do 
you believe that intercity passenger rail service is an 
important resource to continue to bring people to New Orleans? 
Why or why not?
    Mayor Nagin. I think it is very important, Madam Chair, for 
a couple of reasons. We are still building our transportation 
systems in and out of this city. The airport, even though it is 
doing very well, is still only at--you know, if you look at 
cities, it is 88 percent, but if you look at passengers, about 
70-something percent of what it was pre-Katrina.
    We just had these huge football games in the city and we 
had passengers or tourists that were trying to get into this 
city, whether they were driving, rail, flying, what-have-you. 
And intercity rail would definitely enhance our ability to get 
back up to those record years that we had in 2004, absolutely.
    Ms. Brown. I just want you to know that I just had my 
family here this weekend and we were coming from Jacksonville. 
We checked Jacksonville, Orlando on the airlines and the 
tickets was running six, seven and eight hundred dollars.
    Mayor Nagin. Yes.
    Ms. Brown. So I mean it is just ludicrous. That is one of 
the reasons why more people cannot get in here, because they 
cannot afford it. And we need an alternative other than 
driving, you know, ten hours. We are thinking green and we are 
thinking economic development, we have got to think how we can 
move people.
    You mentioned in your testimony that you are seeking $80 
million for rail fortification and startup costs for a commuter 
rail line from New Orleans UPT to Baton Rouge. Who is 
contributing to this project and how much and who would provide 
the service?
    Mayor Nagin. This is a project that the state has been 
working on for a couple of years. We have been working with the 
state. They have done the analysis and I think it is over a two 
to three year period that this type of investment will be 
needed. So the matching funds would be brought forward by the 
state. It is a cooperative endeavor with Amtrak, Amtrak is also 
working with us on this, where they would have some dedicated 
trains that would go back and forth between these two cities.
    But it would also put us in a position where our citizens 
would be more attuned to rail service and they would use it on 
almost a day-to-day basis. So then when we needed it for 
evacuation purposes, we could just expand the number of units 
that are moving between those two rails and besides Memphis, 
have Baton Rouge as another evacuation destination city.
    Ms. Brown. In regard to rail, how can you work with other 
local and state governments to assure that they will be ready 
to care for citizens of New Orleans in case of evacuation by 
rail?
    Mayor Nagin. Well, it is a cooperative effort between the 
city and the state where we are--and the federal government for 
that matter. We are talking to various cities assessing their 
capacity for taking our citizens.
    Going forward, we do not think we will have as many 
citizens that will need to utilize rail, but there still will 
be--I think, Colonel, we are talking what, 25,000?
    Colonel Ebbert. Twenty-five thousand.
    Mayor Nagin. Twenty-five thousand people that are still 
dependent upon public transportation and would need that type 
of transportation.
    There are cities out there that are willing to work with 
us, they just want to know that whatever costs that they incur 
during these emergencies, that they will be reimbursed. And I 
think we are getting closer to those agreements.
    Ms. Brown. Mr. Jefferson.
    Mr. Jefferson. One of the issues during the evacuation was 
after the initial--after the storm passed, this is after the 
storm passed, there were many people who wanted to help in the 
city, many first responders from other parts of the country. 
This business of moving people by rail into the city, have you 
considered--is it part of your plan to move first responders 
from other cities here to be of assistance to us after a storm 
has hit our area?
    Colonel Ebbert. We have not broached that idea. We are more 
concerned at this point of ensuring that we get our citizens 
who do not have the capacity to get out of here----
    Mr. Jefferson. I am talking about after the storm.
    Colonel Ebbert. Obviously, if we develop that capability, 
it gives us the capacity to move the other way, bringing people 
in, especially supplies and people, both of which are high bulk 
items that could be utilized by rail movement much more 
efficient in many ways than highway, one truck at a time. So it 
is a capacity that once we develop it, it would allow us to 
deal with after-storm problems of resupplying those people and 
bringing both manpower and resources into any area in the 
United States.
    Mr. Jefferson. Mr. Mayor, I know we talked earlier about 
you have plans to utilize some special areas for people who are 
in high-risk situations, who could not move out of the city, 
whatever. And of course, now our plan is hopefully to have as 
many people move out as possible without having these big areas 
where we concentrate people with expectation that they will be 
able to weather the storm and go back to their homes.
    Mayor Nagin. Yes.
    Mr. Jefferson. This is a 25,000 person number you are 
talking about who do not have transportation themselves. That 
is--how is the specific planning done to move people from their 
homes to here, to out of here? How would that be done?
    Colonel Ebbert. What we have done is develop a city-
assisted evacuation plan. And our plan is based around (1) the 
utilization of our own internal buses to move citizens from 17 
pickup locations located out of the city, to, and if they are 
coming in on rail, to this facility here to be processed and 
put on rail. So we plan to use our internal capacity with our 
buses that are very much a part of our intercity program.
    We have gone further than that. We have tried to develop a 
database of those people who are incapacitated in a home, 
bedridden, that need assistance to get out of the home to 
actually get to the processing center. So we have worked very 
hard to get the citizens to preregister so we know where those 
people are, who they are and what their needs are. And then we 
again use our ambulances, our buses, our vans, to pick those 
individuals up, bring them to a processing center where they 
can either get on rail or plane transportation out of the 
airport.
    Mr. Jefferson. If I might, Mr. Mayor, about recovery, we 
talked a lot about the evacuation before the storm and some 
things after the storm, but now we are down two years, three 
years----
    Mayor Nagin. Right.
    Mr. Jefferson. --and the issue is how might this rail 
system, changes in it, intercity rail transportation issues and 
all the rest, resolve in a way that might help our city's 
recovery now and in the longer term. And what role do you see 
rail playing in that by expanding the services and the rest 
that you discussed generally?
    Mayor Nagin. It can play many different roles besides it 
being an evacuation tool and also a tool for people to come 
back post-storm. It would allow an efficient transportation 
option for our citizens right now. Madam Chairperson just 
talked about the airlines and what they are doing. The reason 
why the flights are so high is because every plane that leaves 
and comes into this city is full to capacity just about. I flew 
a couple of weeks ago and I got the last two seats on the 
plane, it was literally the last two seats, and I paid a 
premium for that.
    So this would provide us with another alternative for 
people to come in and out of the city. Many of our citizens are 
still living in other parts of the country and want to come 
back to the city to work on their property, check on their 
family members or what-have-you. So it would be critical. I 
have been to Europe also and in Europe, it is a critical part 
of their transportation network.
    I will tell you this though, the infrastructure of the rail 
lines, we have six Class A rail lines that come in and out of 
this city. We are very unique, which is a blessing. But I will 
tell you that most of those rail lines need significant 
infrastructure work because if we are going to have the kind of 
speeds that we need for passenger rail, then we need to fortify 
those rails.
    And I will make this one other point. Most of the rail 
lines are elevated, so in the event of flooding, they are a 
transportation medium that is reliable, even when something 
floods. I cannot remember seeing a picture of a rail line 
totally under water, Colonel, unless you saw one.
    Colonel Ebbert. No, that is correct, they are elevated and 
the only time that we cannot utilize them is when we actually 
close the gates on the levee system, which we would have to do 
probably eight to ten hours prior to a storm arriving in this 
area.
    Ms. Brown. Mayor, I have a couple more questions for you, 
if you do not mind.
    Mayor Nagin. Yes.
    Ms. Brown. What was the cost of restoring this Union 
Passenger Terminal following hurricane Katrina? What 
investments have the City made in restoring this building to 
accommodate Amtrak passengers? This is absolutely a beautiful 
building and I just love the multi-modal, you have the bus 
there, we have the train. I mean this is--the goal is to have 
everything under one roof.
    Mayor Nagin. Yes. I do not recall the cost off the top of 
my head but it was a couple of million dollars that we invested 
in this facility. And we have visions of expanding this. There 
is a streetcar line that stops about two to three blocks away 
from here. So we hope at some point in time to incorporate a 
streetcar line into this facility. And if we have a passenger 
rail system that is coming in and out of the major cities in 
the state and linking us to other cities around the country, 
then when a passenger comes into this facility, they will have 
the option of taking a taxicab, a streetcar, a bus or whatever 
they need to do to get in and around this great city. And we 
will continue to invest in this. We see this as a 
transportation hub for the future of New Orleans that is 
embedded with the rail system. If the rail system was not here, 
we would not have this central location the way we have it. So 
it is critical for the future of this city.
    Ms. Brown. I think those are all the questions I have for 
you at this moment.
    Mr. Santos, can you describe the agreement that the State 
of Louisiana has with other states to accommodate possible 
disaster evacuees? What is the difference in the accommodations 
if the evacuees arrive via bus or rail?
    Colonel Santos. Yes, ma'am. This past year, we had a 
concerted effort, along with our FEMA partners to go out and 
solicit the cooperation and assistance from various states to 
potentially take evacuees from Louisiana. We already talked 
about Tennessee, how they have agreed to accept 6000 evacuees 
by rail in their state. Once they get there, they will be 
responsible for taking those evacuees by bus to the various 
shelters they have near that location. We have other states, 
Arkansas, 4000 by bus, some by air. We have some states that 
will take--Alabama, 10,000 by bus, and they want a few of the 
buses to remain so that way there is a transportation means to 
get people around in the event they need to go do some things. 
So we have a number of states that have agreed with us to take 
our citizens, evacuees, by either bus, air or by rail.
    Ms. Brown. Would your like to respond, Colonel?
    Colonel Ebbert. I think we have worked very hard with our 
state partners and with FEMA to identify those locations where 
our citizens could evacuate. My one concern remains is I 
believe we need to work very hard and the state does not have 
the capability at all times to predesignate shelters. But we 
still need to look regionally across the United States at 
predesignation of shelters if for nothing more than terrorism, 
because if we have to evacuate any urban area in America when 
we do it on short notice, those citizens need to know where 
they are headed. They have got a tank of gas, $3.00 a gallon 
fuel, and $20 in their pocket. They have got to know where they 
are going, they have got to see Uncle Sam out there with his 
arms out saying, ``If you get to this location, we are going to 
provide safety to you and your family.''
    So my fear is more on the short no-notice evacuations in 
urban areas than it is for a hurricane where we can plan and 
identify those shelter areas, depending upon where the storm is 
coming and which direction it is coming. But in a terrorism 
strike, we need to have predesignated major regional shelters 
so our population knows where to go ahead of time.
    Ms. Brown. Last question for both of you all. What plans 
have been done to return people to New Orleans following an 
evacuation? How are those challenges different from getting 
them out--getting them back after the threat is over or the 
hurricane is over?
    Colonel Ebbert. We plan, and our plan the last two years, 
has been to utilize those resources which we use to move people 
out, to move them back, whether it be either by vehicle or by 
train. The more difficult problem that arises--and I do not 
believe we have had a successful plan--is those people who are 
medically critically ill that we move by air are a much greater 
problem in returning because (1) you have to have the capacity 
to return them into a facility where they can be cared for. So 
that is a much more complex operation that is going to take a 
lot longer every time you move these individuals out of the 
city.
    Ms. Brown. Mr. Santos.
    Colonel Santos. Yes, ma'am, I echo the same sentiments. 
What Terry describes is those very sick people, you take a 
chance when you move them. There is a possibility they may not 
make it, but we may find ourselves in a situation where we have 
no choice. Our Department of Health and Hospitals here in 
Louisiana has done a very, very good job in putting together 
what they call the medical institution evacuation plan. And 
based on the situation or scenario that we face ourselves with, 
we have a plan in place that, using our federal partners' 
resources, DOD, that we are able to fly very, very sick people 
to hospitals out of the state of Louisiana. And yet it is a 
complex plan because they have to know exactly where they are 
going. And so all of that has to be coordinated before that 
patient gets on that plane and leaves Louisiana for that 
location.
    But you know, when you are dealing with very, very sick 
people, it is very challenging.
    Ms. Brown. Go ahead.
    Colonel Ebbert. Madam Chair, I would like to add one more 
item to that. One of our requests of Congress last year and 
this year has been for the funds to do a cost/benefit analysis 
of moving that population versus developing a capacity to keep 
them in the region where they are safe from the storm, can be 
cared for properly and do not have to be moved. That particular 
population is greatly at risk, the very sick, every time we 
pick them up and move them, by whatever means, and we would 
like to have a cost/benefit analysis done of developing the 
capacity through dual-use facilities or such that maybe it is 
more economical to work to shelter those individuals in place 
than it is to move them great distances.
    Colonel Santos. And if I may, that is part of the plan. You 
know, our medical professionals will make that decision. There 
are hospitals that have hardened themselves, put in generators 
high up so that way, you know, again depending on the 
situation, a decision can be made of whether or not it is 
prudent to leave those sick people where they are, ride out the 
storm and then let us see what happens. If something does 
happen, then at that point after the storm passes, then 
obviously make that decision to get these people out to a safe 
location.
    So all of those factors are looked at, you know, when that 
time comes.
    Ms. Brown. Colonel, one last question. In the evacuation 
following hurricane Katrina, Amtrak trains were ready to 
transport hundreds of people to safety. However, many 
logistical reasons prevented this from happening. Is the Gulf 
Coast emergency preparations impaired in any way that if it 
does not have access to something like Amtrak's Sunset Limited 
that allows the movement of people from a disaster area to 
safety? I mean, have we resolved that problem or--I heard what 
you said, we need a multi-year planning (1); (2) we need to 
have some kind of agreement with the private rail. Is there any 
other thing that would stand in the way from moving these 
people out of harm's way?
    Colonel Ebbert. I think that (1) to answer your first 
question, Madam Chair, without rail, yes, people will be at 
risk. We need rail transportation for these, what I would 
entitle the more fragile of our population, the elderly or the 
very young or the ambulatory sick. We need rail to move those 
on. (2) the last two years, we have in a partnership with our 
state and federal authorities worked with Amtrak and have not 
had that problem. My concern as we move forward is that I 
believe we need to develop it on a regional basis so it becomes 
cost effective and that we do not have to start the process 
every year to develop all these agreements because of the 
amount of time and effort that it takes to develop those.
    Ms. Brown. Okay. Well, with that, any closing statements 
that you all would like to make, starting with Mr. Cannon.
    Mr. Cannon. I think that, especially with the last two 
speakers, you get the sense that FEMA's role is to support 
local emergency responders. All disasters in our country start 
at some local place. And it may be years later, but they end at 
that same local place. It is the responsibility of the City of 
New Orleans and the State of Louisiana, to deal with these 
issues.
    Our job at FEMA is to help them, to support them, but not 
to do their work for them. But to be engaged partners with 
them. When I spoke about legislation, if I go to DOD and say I 
want to give you an assignment to help with this, they have a 
mission to do that. When I go to Health and Human Services and 
I say I need your support on medical care, they have a mission 
to do that.
    When I go to someone else that has never had a mission like 
that and now I ask for those resources, it takes much, much 
longer to plan and develop that.
    But again, when we do that at FEMA and when we try to 
coordinate that, it is in support of the state and local 
government who have the legal responsibility in this country. 
This Mayor sitting beside me has the legal responsibility for 
dealing with this city and our job is to make sure he is 
successful. And that is what we are about, supporting the local 
people in their response.
    Ms. Brown. Mr. Cannon, let me just say that when people 
were looking at the government--and I am part of the 
government, you are part of the government--they did not care 
whether it was the Congress, they did not care whether it was 
the President, they did not care whether it was the Democrats 
or the Republicans. They thought we were inept, incompetent and 
did not care.
    Mr. Cannon. I recognize that.
    Ms. Brown. Period. Everybody felt so.
    Mr. Cannon. Yes.
    Ms. Brown. And so as we move forward, we need to understand 
that people want the government to work efficiently, 
effectively and they do not care--it is not the blame, I am not 
pointing any finger at you. I am saying when I personally was 
home watching it on TV, I thought our government was missing in 
action. And I am part of the government.
    And so I had to do something. I organized my community, we 
sent 16 tractor-trailers and let me tell you, when they were 
coming and there was something about the gas and they said that 
you do not have a certain placard to get gas, they got me on 
the phone, 1:00 in the morning. And they let my trucks roll. 
They do not care, people do not care. When there is a problem, 
they want people to move and that is what we have got to figure 
out, how to make sure this government works the way it is 
supposed to work.
    And you know, FEMA, it was just--I am not saying it was 
just FEMA, I am saying the government failed. And we have just 
got to make sure it does not happen. People around the world 
was looking at us and calling, thinking that the government was 
a failure and they did not say whether it was FEMA, they--I 
mean they just thought that we had a crisis, a meltdown.
    Mr. Cannon. Madam Chair, let me--I think you misinterpreted 
what I said.
    Ms. Brown. Okay.
    Mr. Cannon. Our role is to make sure that we are out there 
supporting them, as you have heard testified here that we have 
done for the last two years, by having things in place before 
it happens. Coming in after the fact is very difficult. I want 
you both to know that FEMA is a very different place than it 
was in 2005. There is absolutely no leadership at FEMA that was 
here then and everyone that has been hired at FEMA, including 
myself with almost 40 years of emergency service experience, 
everyone in the top of FEMA has real world emergency service 
experience now.
    I would also tell you while we have been blessed by having 
no major hurricane hit the United States for the last two 
years, if you will look at tornadoes in Florida that happened 
last February and March--February. Georgia and Alabama where a 
school was hit and a hospital was hit, and Kansas that lost an 
entire town, the first people on the ground after that event 
with aid were from the Federal Emergency Management Agency. We 
have a new strategy today, it is called Leaning Forward. The 
Stafford Act tied our hands for many, many, many years. We will 
no longer sit still and watch people drown because we are 
worried about who has got the authority and the responsibility. 
And all you have to do is look at our performance for the last 
two years and know that what I say to you is true.
    And why we have spent so much time and so much money down 
here in Louisiana is to make sure that that situation that you 
described never, never happens again. And I can tell you this, 
that the people who died in New Orleans will not have died in 
vain as long as we and people of our ilk are in charge of the 
Federal Emergency Management Agency.
    Thank you.
    [Applause.]
    Ms. Brown. I want to thank you for that. And I just want 
you to know that the FEMA that I dealt with coming from 
Florida--we had problems, we had hurricanes, we had them in my 
district--I never had the problems that the people in New 
Orleans experienced. It was a different FEMA. I am glad that 
the FEMA that I dealt with is back because I never had the 
problems that the people in this area had with FEMA, because I 
represent Jacksonville, Orlando. I mean we had hurricanes, we 
had fires, but we had the support and the boots on the ground 
from the beginning. And I am very glad that FEMA is back with 
professionals doing their job.
    Mr. Cannon. Madam Chair, just one other connection. I was 
the fire marshal for the state of Florida under Governor 
Childs.
    Ms. Brown. Oh, all right.
    Mr. Cannon. So we have that neighbor connection there. And 
the FEMA you had to deal with here no longer exists.
    Ms. Brown. Thank you.
    Mr. Cannon. Thank you.
    Mayor Nagin. Madam Chairperson, I want to thank you once 
again for bringing this Committee here. You raised some great 
points. You know, hurricane Katrina kind of caught everybody a 
little off guard, all of us of government were overwhelmed with 
the disaster. And we were not necessarily coordinated enough to 
effectively respond to people. And that is a great lesson 
learned. Unfortunately some people had to suffer and die as a 
result of this.
    But I stand before you fairly confident that we have a good 
planning process in place now. We have better cooperation 
between the federal, state and local governments than we have 
ever had. And I think we are here talking about something very 
important. And that is the rail system and how can that be 
utilized, not only just for day-to-day transportation, you 
know, methods, but for evacuation purposes. And I think this is 
an under-utilized resource that this country, if it focuses in 
on this, can improve it, it can be an efficient and cost-
effective manner for us to move people normally and during a 
state of emergency.
    So we thank you for focusing this country on this 
initiative. There is a significant amount of investment that 
needs to happen in the rail lines to get them in a posture 
where we can utilize them effectively. And anything we can do 
from the City of New Orleans standpoint, we are more than 
welcome to participate and help lobby.
    Thank you.
    Colonel Santos. Madam Chair, thank you again for asking us 
to be here.
    Like I said in my opening remarks, a lot of lessons have 
been learned from the hurricanes of 2005, especially in this 
area.
    I will tell you that I will vouch for Mr. Cannon and his 
remarks about the new FEMA, if you will. We for the past two 
years have been working diligently with FEMA up in Baton Rouge 
and their warm cell professionals who have been up there, who 
have been nothing but professional in how they have approached 
the planning and the coordination here in Louisiana. Not only 
here just in Orleans Parish or in the southeast, but across our 
state, all of the at-risk parishes.
    Many, many, many hours of planning, coordination have gone 
into these plans. And I get asked all the time, are we ready. 
Are we ready. My answer is yes, we are, but that does not mean 
we are going to stop here. We can get better, we can continue 
to improve our plans and we continue to do that every day. As a 
matter of fact, we are meeting with Paulison and Admiral Harvey 
Johnson on Wednesday, this Wednesday, and briefing them up on 
where we are at. So everyone is engaged. And I cannot say 
enough about the City of New Orleans and the job that the 
Mayor, Terry, Jerry Sneed, the Director, have done since the 
hurricanes. They are planning and they are engaged, we talk 
with them on a regular basis and that is what it is all about, 
is working together. This is a team effort, the local, state 
and federal level. And if we keep it like that, then yes, we 
are better, we are ready.
    Thank you, ma'am.
    Ms. Brown. Thank you all for your testimony--oh, I'm sorry, 
Colonel.
    Colonel Ebbert. Thank you very much, Madam Chair. I just 
want to finish with one philosophical item for the nation, and 
that includes those of us at the local level, state level and 
the federal level. This is a great nation with tremendous 
assets and we divide ourselves into two categories of 
organizations driven by two different things. (1) we have 
mission-driven organizations driven by risk management and we 
have compliance-driven organizations driven by risk avoidance. 
We cannot look to the future of this nation in catastrophic 
instances and be held hostage by organizations that are 
compliance-driven and risk avoiders. You cannot avoid risk, you 
can only manage it. And those individuals at federal, state and 
local level have got to be given the leeway to be risk 
managers, not risk avoiders.
    Ms. Brown. Well, first of all, let me thank you all very 
much for your testimony, for answering our questions. We have 
some additional questions in writing that we will submit to 
you. Thank you again very much for your testimony. We heard you 
and we are going to take your recommendations back to 
Washington.
    I also have a little package for you. They will pass it 
out. You know that we just passed a stimulus package which was 
temporary to stimulate the economy, which you know, I voted for 
it because we were able to include some money in there for 
senior citizens and disabled and veterans.
    But the key is the infrastructure investment. And one of 
the things that we want to do is to invest and we may have 
another stimulus package in the next three months that will 
include infrastructure investments--water, sewer, transit--and 
it will be those projects that are ready to go in 60 to 90 
days. We had a group to testify before us, four governors, and 
they said they had projects that they could have on the streets 
in 60 days. So I am going to give you that package, I brought 
it with me and as we move forward, certainly we are going to 
make sure that transit is included and of course water and 
sewer, which is, you know, not glamorous but you have got to do 
it to have economic development. And we can see now if we do 
not invest in our infrastructure, some of the problems that we 
have experienced, we will have more of them.
    Thank you very much. We are going to take a five minute 
break before the next panel comes up. Thank you.
    [Applause.]
    [Recess.]
    Ms. Brown. I would like to welcome and introduce our second 
and final panel for this afternoon. Our first witness is Mr. 
Richard Phelps, Vice President for Transportation for Amtrak. 
Thank you, I think there is 30 years of experience, someone 
told me.
    Mr. Phelps. That is correct, a little over.
    Ms. Brown. Our next witness is Mr. Jeff Moller, Executive 
Director of Safety and Operations for the Association of 
American Railroads; the third panelist is Dr. John Bertini. Our 
fourth witness is Wayne Thomas, Vice President of Homeland 
Security and Emergency Management and our final witness today 
is Karen Parsons, Executive Director of the Southern Rapid Rail 
Transit Commission. And I think we met in my office before.
    Ms. Parsons. Yes, we have.
    Ms. Brown. Let me remind the witnesses that under Committee 
rules, oral statements must be limited to five minutes, but the 
entire written statement will appear in the record. We will 
also allow the entire panel to testify before questioning the 
witnesses.
    We are very pleased to have you here today and I recognize 
Mr. Phelps for his testimony.

TESTIMONY OF RICHARD PHELPS; VICE PRESIDENT FOR TRANSPORTATION, 
AMTRAK; JEFF MOLLER, EXECUTIVE DIRECTOR, SAFETY AND OPERATIONS, 
ASSOCIATION OF AMERICAN RAILROADS; DR. JOHN BERTINI, JR.; WAYNE 
  THOMAS, VICE PRESIDENT FOR HOMELAND SECURITY AND EMERGENCY 
MANAGEMENT, INNOVATIVE EMERGENCY MANAGEMENT; AND KAREN PARSONS, 
   EXECUTIVE DIRECTOR, SOUTHERN RAPID RAIL TRANSIT COMMISSION

    Mr. Phelps. Good morning, Madam Chairwoman and 
Representative Jefferson, thank you for the opportunity to 
testify before this Committee. My name is Richard Phelps and I 
am Amtrak's Vice President of Transportation. In this capacity, 
I am responsible for the operation of all Amtrak trains, a 
responsibility that includes the operation of the----
    Ms. Brown. Sir, can you put the mic just a little closer to 
you?
    Mr. Phelps. --a responsibility that includes the operation 
of evacuation trains from New Orleans. I would also like to 
thank Mayor Nagin for his city's hospitality and for hosting 
this field hearing.
    As you probably know, Amtrak began operations on May 1, 
1971 and since that first day, New Orleans has been a key stop 
on our system with scheduled service to Washington, D.C., New 
York, Chicago, Los Angeles, Atlanta and Memphis. And we have 
served New Orleans continuously ever since then.
    Let me briefly outline Amtrak's plans for disaster relief 
in the region in the event of another hurricane. We have done 
some significant work with the Federal Emergency Management 
Agency on planning evacuations since Katrina, and Amtrak was 
under contract with FEMA for the 2007 hurricane season, which 
extended this year from June through November. This contract 
expired on November 30, 2007 and we will begin talks with FEMA 
this month about renewing it for the 2008 season. Therefore, 
any references I make to an evacuation plan refer to the plan 
we put together for the 2007 season.
    Evacuation plans are very complex and the logistics of 
railroad transport are not the only consideration. We move the 
evacuees, but we must bring them to points where FEMA can 
arrange for shelter and feeding and we can really only advise 
FEMA about the feasibility of rail evacuation to those points. 
One advantage of railroads is our ability to move large numbers 
of people at once, but it is important to remember that we can 
only move them on fixed lines. We need to keep this in mind as 
I discuss the logistics of an evacuation to Memphis, which was 
the destination we envisioned in our joint planning with FEMA 
in 2007.
    It think it is important to start by setting out the 
conditions that are necessarily going to govern any evacuation 
effort. Because of the nature of hurricanes, we assumed we 
would have a relatively limited amount of time to implement our 
plan and there are a couple of governing assumptions that I 
should explain before we get into the description of the actual 
plan.
    The first assumption is that Amtrak would receive its 
evacuation instructions from FEMA approximately 72 hours before 
the hurricane makes landfall. Of course, FEMA will issue these 
instructions at the request of the State of Louisiana. Landfall 
time would be determined by the National Weather Service. From 
this assumption flows another. And that is the timing of the 
individual parish levee boards' decisions to close the levee 
gates around New Orleans. In 2007, we assumed that the board 
would close the levee gates 12 hours before the hurricane's 
announced landfall time. Obviously a lot can happen and we 
understand it is possible the levee gates could actually be 
closed 24 hours before the announced landfall time, which would 
then reduce the amount of time we have to conduct the 
evacuation from 60 hours to 48 hours. This would then reduce 
the number of outbound train trips they can make and lower the 
total number of evacuees we could cover.
    All the rail lines out of New Orleans pass through levee 
gates and some pass through multiple gates, so general gate 
closure will effectively seal the rail routes. Any individual 
closure on a line with multiple gates, like the Canadian 
National line to Memphis via Jackson, Mississippi, which passes 
through three sets of levee gates, would close the entire line 
to trains leaving New Orleans Union Terminal. Because this 
would prevent further rail evacuation and leave equipment in 
the path of the oncoming storm, Amtrak would remove every piece 
of rolling stock that could move from the city before the storm 
struck. This would provide us with cars that could then have 
been used to transport evacuees to other locations or to bring 
in additional responders for relief efforts. Equipment that was 
inside the city after the gates closed would be moved to high 
ground to limit water damage.
    The first 24 hour period of our 2007 plan would be spent 
mobilizing and deploying personnel and equipment to New 
Orleans. Amtrak has designated members of a rail evacuation 
team, or RET, who would have deployed to New Orleans in that 
period to organize and prepare to receive evacuees. To 
coordinate with the State's evacuation planners, a mobile 
command center bus would also have moved to Baton Rouge to link 
up with the Louisiana Department of Transportation Emergency 
Operations Center, so it could provide 24 hour liaison with 
Amtrak's Central National Operations Center in Wilmington, 
Delaware. The team would have included Amtrak police and 
emergency preparedness employees who could provide 24 hour 
coverage of the State ESF-1 functions, which encompass 
emergency transportation and infrastructure operations.
    All revenue service to and from New Orleans would have been 
suspended. Individuals holding tickets on scheduled trains 
whose equipment was diverted to evacuation service would be 
given priority on those trains. Normal service from New Orleans 
would have been canceled to allow equipment to be used in the 
evacuation. In-bound trains would have turned at major 
intermediate points. Equipment currently in New Orleans would 
be used for evacuations and we would bring in whatever 
additional equipment that is deemed necessary. On any given 
day, Amtrak has three trainsets in New Orleans for normal 
operations and they would have been pressed into service for 
evacuation.
    Under our 2007 agreement, evacuation would have begun at 
New Orleans Union Passenger Terminal 24 hours after we received 
notification from FEMA, and several trains would have departed 
from New Orleans for Memphis over the next 36 hours. We planned 
our operations with an understanding that the situation would 
naturally be fluid and I need to emphasize that it depended 
upon two key government decisions--FEMA's notification to 
Amtrak and the Federal Railway Administration's notice to the 
freight railroads that the evacuation had begun and that 
evacuation trains had priority.
    On the handout we have here, you will note that we have 
highlighted our normal services to and from New Orleans in 
black and potential rail evacuation routes in red. When 
planning for an evacuation, we want to move people inland and 
the two lines that physically offer the best evacuation routes 
out of New Orleans are the Kansas City Southern line to Baton 
Route and the Canadian National line to Memphis. We would stay 
away from the coastal routes, since those would be vulnerable 
to disruption. Our 2007 planning was focused on an evacuation 
to Memphis, and I will discuss our plans in that regard. Once I 
have done so, I will come back to the issue of routes and 
destinations to offer some closing comments.
    The evacuation to Memphis would have begun when the first 
train departed New Orleans 24 hours after we received the FEMA 
alert. This would have been an eight hour trip over Canadian 
National rails, and it would be the first of four trips to 
Memphis, which could collectively evacuate a total of about 
5800 people. Amtrak's employees in New Orleans would have 
secured the station and departed on the last trains out of the 
city, bringing any unused emergency food and water supplies out 
with them. We would also have moved all of the defective and 
unserviceable equipment that could roll just after the last 
train departed. This would have required a waiver from the 
Federal Railway Administration.
    To support our planned evacuation, Amtrak stocked a total 
of 18,000 emergency snack pack meals and 72,000 bottles of 
water at our commissary facility here in New Orleans Union 
Terminal to feed evacuees. We also created go kits for every 
participating engineer and conductor that included such vital 
items as operating rules books for the railroads on which we 
will be operating, portable radios, satellite phones, gloves, 
safety glasses, batteries, lanterns and switch keys.
    Ms. Brown. Mr. Phelps.
    Mr. Phelps. Yes?
    Ms. Brown. You have gone over the five minutes. Can you 
close or make your last point and then maybe we can get some 
additional information out during the questioning period.
    Mr. Phelps. Sure. I just would like to close by saying that 
we really worked as a team with both FEMA and the FRA because 
we need both of those as partners in trying to coordinate a 
plan that allows us to evacuate and to have priority over the 
freight railroads.
    The most optimal route for us is the route up to Memphis, 
only because that is the route that we currently operate on, 
our crews are qualified over there and we can operate at 
timetable speeds. And the route to Baton Rouge is not conducive 
to the type of speeds that we need right now because it's 
basically a freight train route and we do not operate passenger 
service over there, although some day we would like to.
    So I just would like to conclude that it is very difficult 
and complex to formulate these plans, but we have always been a 
willing partner and we want to continue to serve this emergency 
function for the State of Louisiana and other parts of the 
country.
    Ms. Brown. Thank you. Mr. Moller.
    Mr. Moller. Thank you, Madam Chairwoman and Congressman 
Jefferson. On behalf of the Association of American Railroads, 
thanks for the opportunity to appear before you today.
    The New Orleans Terminal is a key gateway in the nation's 
rail network and it is vital to the national, regional and the 
local economies. Prior to hurricane Katrina, the Louisiana 
Department of Transportation and Development and the Regional 
Planning Commission formed a partnership with the association 
to study possible improvements to the New Orleans rail gateway.
    A feasibility study is almost complete and there are a 
number of improvements that have been identified to enhance the 
operation of a rail network, at the same time creating some 
potential significant benefits to the community. Included in 
these are more fluid routing for the trains to allow them to 
get into and out of New Orleans more quickly. And this is of 
course especially important during the critical hours leading 
up to a weather event.
    The LADOTD and the Regional Planning Commission are 
continuing their partnership with the railroads and we could be 
beginning a formal environmental impact study later this year.
    The U.S. freight railroads move a vast amount of just about 
every type of cargo connecting businesses with each other 
across North America, overseas and elsewhere on a rail network 
spanning more than 140,000 route miles. The industry accounts 
for about 40 percent of the U.S. freight ton miles. That is 
more than any other mode, and it does so at about 10 percent of 
the freight revenue because of our inherent efficiencies.
    Since 1980, the industry has invested about $420 billion, 
that is more than 40 cents out of each revenue dollar, on 
infrastructure and equipment, creating the world's finest 
freight rail network. This provides significant public 
benefits, including lower pollution, energy consumption, 
reduced highway gridlock, enhanced mobility, safety and 
security.
    States and localities can realize even more of these 
benefits through the greater use of public-private partnerships 
such as the one being envisioned here in the New Orleans 
gateway. These partnerships are based on the principle that 
private entities should pay for private benefits and that the 
public entities should pay for those that benefit the public. 
Rail traffic is expected to double by 2035 and so these 
partnerships are going to become even more important as we go 
forward.
    A recent study by Cambridge Systematics found about $135 
billion should be invested in the network to expand the 
infrastructure just to keep up with that demand. The industry 
figures that we can generate probably about $96 billion of 
this, which leaves a $39 billion shortfall, which is about $1.4 
billion a year. This needs to come from somewhere and it can be 
funded partially through private-public partnerships, perhaps 
investment tax credits or other sources.
    Public officials around the country have recognized the 
value of public-private partnerships and have worked together 
with the freight roads on a win-win basis. Four of them are 
describe in my written testimony, but just to summarize here, 
there is the Alameda Corridor, which serves LA-Long Beach; the 
Chicago Regional Environmental and Transportation Efficiency 
Program or Chicago CREATE; the Heartland Corridor, which is a 
route from Newport News-Norfolk up to Ohio and up into Chicago; 
and the Reno trench. All of these represent significant public 
benefits.
    AASHTO, the American Association of State Highway and 
Transportation Officials, supports public-private partnerships. 
In a January 2003 report, they noted, ``Relatively small public 
investment in the nation's freight railroads can be leveraged 
into relatively large benefits for the nation's highway 
infrastructure, highway users and freight shippers.''
    With existing rail capacity limited, expanding rail 
passenger service also will need public-private partnerships. 
Freight railroads are already successful partners with 
passenger railroads all across the country. More than 95 
percent of Amtrak's route mileage is owned by the freight 
railroads and hundreds of millions of commuter trips each year 
occur on commuter rail systems that operate at least partially 
over tracks or rights-of-way owned by the freight railroads.
    However, if passenger railroad operations impaired freight 
operations and forced freight onto the highways, highway 
gridlock could get worse, fuel consumption, pollution, 
greenhouse gas emissions, et cetera, could rise and our 
mobility would deteriorate; outcomes that of course are 
completely contrary to the goals of expanding passenger 
operations.
    Freight railroads want passenger railroading to succeed and 
passenger rail progress though must be complementary to and not 
conflict with rail freight development. This means we are going 
to have to work together.
    In the years ahead, a rapid increase in our nation's 
traffic will stretch ur already constrained transportation 
infrastructure, including railroads.
    Enhanced freight rail transportation needs to be part of 
that solution. The freight industry looks forward to working 
with this Committee and others in Congress and other 
appropriate parties to help ensure that the rail freight 
network remains the best in the world and continues to meet our 
transportation needs.
    Thanks very much.
    Ms. Brown. Thank you.
    Dr. Bertini. Thank you, Congresswoman Brown, Congressman 
Jefferson; thank you for your invitation to appear before your 
Subcommittee. I am John Bertini. I serve on several boards of 
directors of passenger rail groups and as a member of several 
regional planning groups. I am a practicing physician.
    On Thursday morning, September 22, 2005, I received an 
early morning call from Joy Smith, an official with Amtrak, 
asking if I would organize and assist in the loading of trains 
departing from Houston's Amtrak station taking evacuees out of 
hurricane Rita's projected path. Amtrak had dispatched a four 
passenger car, one dining car train to Houston to evacuate 
people who had fled hurricane Katrina less than a month before 
and were still sheltered in Houston. I provisioned the train 
with food and water, loaded several hundred people in 20 
minutes and sent them on their way to a rapid trip to San 
Antonio where they received care and shelter.
    Just after the Amtrak train departed to the west, a 
Burlington Northern Santa Fe and Trinity Rail Express commuter 
double decked train arrived to take another several hundred 
people, many with disability and infirmity, rapidly to Dallas 
with an intermediate stop for a meal. These people, their 
belongings, medical equipment and supplies, were rapidly 
boarded with order and calm.
    I know firsthand the power and problems of passenger rail 
evacuation. The potential far outweighs the impediments 
obstructing the development of a feasible rail passenger 
disaster evacuation plan for our Gulf Coast and for the nation 
in response to either a natural or manmade disaster.
    The major problems are a lack of a comprehensive plan 
involving Homeland Security, Amtrak, the Class 1 railroads, 
state and local officials. Such a plan would need to provide 
the equipment, logistics of rapid response, the mustering of 
selected evacuees and the care of these people as they travel 
to their destination point, then with a provision for their 
return. There are practical problems of freight traffic volume, 
lack of railcars, care of the elderly and the infirm, rail 
infrastructure limitations and staff training that would all 
yield to a coordinated planning and practice exercising.
    The potential of passenger rail to move many of those 
residing within institutions such as health care facilities or 
who have restricted mobility either because of age or 
disability, or those who lack access to private transportation, 
is unmatched by forms of transportation crippled on the crowded 
evacuation roads. People can be cared for and fed while rapidly 
fleeing danger under the care of a small number of crew. The 
response-to-resource ratio can be quite favorable, provided the 
evacuation plan is well constructed by those who understand 
both railroads and disaster planning.
    Thank you.
    Ms. Brown. Thank you and thank you for your assistance too.
    Mr. Thomas.
    Mr. Thomas. Chairwoman Brown, Congressman Jefferson, I want 
to thank you for this opportunity to be here today and to 
provide this testimony. I have provided written testimony for 
the record and I will provide some brief remarks this morning.
    My name is Wayne Thomas, I am the Vice President of 
Homeland Security for IEM. We are a national emergency 
management and homeland security planning company headquartered 
in Baton Rouge, Louisiana. We have been in business for more 
than 22 years and we started our business with hurricane 
planning.
    We are currently supporting many states and FEMA across 
this nation, working on what I will describe as historic 
catastrophic planning activities, both in Florida with a major 
hurricane hitting the Miami area and in the central United 
States on a major earthquake impacting that region.
    We are also supporting FEMA on what I will call evacuee 
support projects. This would be when evacuees arrive at a 
location, how those states are prepared to receive and manage 
these citizens that are in a very stressful situation--where 
they go, how they are processed, what medical equipment they 
have and so forth.
    Based on our experience through many years of doing this 
work and our current activities, there are some observations I 
want to share with you this morning. And I think some of the 
previous panel have also conveyed these thoughts.
    The use of rail is a vital component in evacuation. I think 
we would be remiss and somewhat negligent if we did not 
consider it as a component in an evacuation program. That is 
why it is important that we look at this question in great 
detail. As this gentleman has just pointed out, I think we have 
examples of where it has been used effectively already.
    The challenge I think is to incorporate rail into an 
overall evacuation program--bringing these citizens to the 
point where they get on the intercity train, they are 
transported safely and securely to an arriving location with 
food and appropriate medical facilities. And when they arrive 
there, they are treated with the appropriate respect by the 
receiving states and are put in a shelter facility where they 
have appropriate care for however long they need.
    This is a challenging process. I do not think we can 
misinterpret or diminish how challenging this is. It takes 
intense collaboration, many hours and maybe even years of 
conversation on the planning process. We are working now with 
many states and local jurisdictions on their planning issues 
and we are finding that people want to help, they are 
desperately crying out for planning support to get these things 
done.
    There have been comments earlier about the need for a 
national plan, looking at the rail system. I think that is 
something we need to explore in great depth. I do not think we 
have gone there yet, but it is something that we need to look 
at.
    The final comment I will make is that I hear discussion of 
this and I think sometimes we begin to talk about this as a 
standard logistics challenge and it is not. We are dealing with 
people. We are dealing with people that are in a challenging, 
stressful, maybe the most stressful environment of their life. 
And they are mid-disaster, they want to escape that danger and 
go to a place where they are safe. As a country, our people are 
our most valuable assets and I think we are remiss sometimes in 
how we talk about this. I want to be sure that we do not forget 
that these are people and we are asking people to leave their 
homes and go to a place they do not know, they probably have 
never been, and stay there until they are safe and then they 
come back to maybe not even having a home.
    Thank you.
    Ms. Parsons. Madam Chairwoman, Congressman Jefferson and 
staff, I thank you for having me here today. I am Karen 
Parsons, I am the Executive Director for the Southern Rapid 
Rail Transit Commission and our role is a three-state 
commission and therefore, today what I want to talk about 
really is the role of hurricane evacuation not just for New 
Orleans and Louisiana but also for Mississippi and Alabama. So 
we maybe have a unique perspective that has not been covered 
yet.
    I think that we have established so far that there are vast 
benefits of having intercity passenger rail for hurricane 
evacuation and so I will not go into depth on that. And my 
longer testimony is available.
    As we know, the airports are usually the first facilities 
to cease operations when a storm approaches but trains can 
operate up to the last moment, moving people out of harm's way. 
The use of passenger rail for evacuation, as does any 
successful operation, requires planning and preparation. It 
takes time to position the trains and their crews to the city 
being evacuated. And as we found out during Katrina, once the 
decision is made to evacuate, there may not be sufficient 
warning time to move Amtrak train equipment from other parts of 
the country.
    Having an established intercity passenger rail service 
provides immediately available resources, with a known capacity 
from which to plan and execute the evacuation, including 
trained crews which are not presently available for New Orleans 
to Baton Rouge or from New Orleans east to Jacksonville.
    While passenger rail transportation is an important 
resource for evacuation, the greatest contribution of an 
intercity passenger rail system comes in the post-disaster 
recovery stage. Katrina displaced thousands of residents and 
now, more than two years after the storm, many people have 
still been unable to return home. For the last two years, the 
State of Louisiana has successfully operated the Louisiana 
Swift bus service to provide transportation for displaced 
citizens in communities between Baton Rouge and New Orleans to 
return to their jobs in the greater New Orleans area. And this 
unprecedented success only demonstrates the need and value of 
having intercity transportation to the recovery of the 
devastated community.
    The Southern Rapid Rail Transit Commission is supporting 
the efforts of the State of Louisiana to establish intercity 
passenger rail service between Baton Rouge and New Orleans to 
provide reliable, economic transportation for people living 
throughout the corridor. The rail service will provide planners 
with immediately available passenger rail equipment and 
established capabilities from which to prepare for the next 
major storm. But more importantly, it will also provide an 
immediately available transportation system to boost the 
recovery effort.
    A few things I would like to point out is fares for the new 
service will be less expensive than traveling by automobile, 
the cost of fuel to drive between Baton Rouge and New Orleans 
is approximately $12.25, the projected cost of a single ride 
train ticket between the two same points is about $11.00 with 
discounts for multi ride and monthly passes. A taxi from Louis 
Armstrong International Airport to a downtown hotel costs 
anywhere from $13.00 to $29.00. The cost of a train ticket will 
only be $7.00 from the airport to the Union Passenger Terminal.
    New Orleans and the State of Louisiana are planning ahead. 
We know Katrina will not be the last storm to hit the Gulf 
Coast. Implementing the intercity passenger rail service within 
Louisiana will provide a ready reserve of equipment and trained 
personnel. It is important to note that this may be possible 
because the service will reside within Louisiana state 
boundaries and not as a multiple state corridor. The Louisiana 
State Legislature is able to act independently of our other two 
states within our commission, Mississippi and Alabama, in this 
effort. And to institute a multi-state train requires 
confronting more difficult problems as detailed below.
    After the storm, our service east of New Orleans was 
discontinued to Jackson on the Sunset Limited. When it was 
first started, the four states--Mississippi, Louisiana, 
Alabama, Florida--came together and partnered with Amtrak and 
the CSX to start service. There was about $4 million invested 
in that track, Florida putting up the bulk of around $3 
million. It was a notable time, it was a true success to have 
that train begin. And today, there is no way to evacuate people 
off of the Gulf Coast without that service. So that is of grave 
concern for the Southern Rapid Rail. There is no train service 
that goes north from Gulfport, Mobile, some of the cities along 
the Gulf Coast, so those people would effectively have to 
evacuate to the east or the west to connect to the Silver 
Service in Jacksonville or to, as was suggested, any new 
service to Baton Rouge or the City of New Orleans train to 
Memphis or the Crescent to Atlanta.
    Numerous hurdles were overcome to institute the service in 
1993. Congress funded through the Amtrak budget a feasibility 
study. CSX and Amtrak worked together to identify impediments, 
including regulatory and physical obstacles. The states closed 
hazardous highway crossings and built stations while Amtrak 
supplied needed cars. All of those things took time and to put 
the train back in order and to restart service, to provide 
hopeful future hurricane evacuation will take the coordination 
of three states working together, which provides a level of 
difficulty that we have not experienced before.
    The Southern Rapid Rail Transit Commission has effectively 
supported Congressional funding for all operations of Amtrak 
for 25 years, since our inception in 1981. Any intention to 
notice the Sunset is of great concern, given the citizens of 
Louisiana, Mississippi, Alabama and Florida rely upon Amtrak to 
be our service provider to connect us locally and to the 
greater United States, both for daily service and also for 
hurricane evacuation.
    The recent philosophy to evacuate long distance service 
based on financial solvency rather than as a national transit 
service is troubling. Long distance trains function as most 
traditional urban transit systems, to provide a valuable 
community service regardless of financial profitability. And it 
is well-documented that long distance trains also enhance and 
feed the existing and developing corridor routes.
    We ask that the Sunset Limited route east of New Orleans 
not be officially noticed and that the Amtrak be required to 
restore service between New Orleans and Jacksonville in an 
improved form. Such service could be separate from the Sunset 
Limited operating between these two city pairs. This initiative 
will not only restore an additional route and equipment for 
rail transportation out of greater New Orleans area and the 
Gulf Coast states in a time of emergency evacuation, but will 
also restore a critical missing link in the national network 
that currently forces anyone wanting to travel by rail between 
New Orleans and Jacksonville to use a circuitous and lengthy 
multi-leg trip. One must travel to North Carolina and/or 
Washington, D.C. in order to make the necessary connections to 
reach Florida. This adds several days of train travel time.
    Ms. Brown. Ms. Parsons, Mr. Jefferson said that you are 
over. But she is talking about Jacksonville.
    [Laughter.]
    Ms. Parsons. I apologize.
    Ms. Brown. I am going to give you an additional minute.
    Ms. Parsons. All right, all right.
    Well, as you can see, I wrote a whole lot and so I----
    Ms. Brown. Some of it can come out during questions. Just 
your closing.
    Ms. Parsons. Okay.
    To work together in the future to have some sort of service 
across the Gulf Coast will require Louisiana, Mississippi and 
Alabama to fund that route together under the new proposed 
framework for corridor service. To get there is very difficult 
in that we have three state legislatures with three different 
funding cycles and three different priorities, particularly 
after being devastated by hurricane Katrina. We would ask help 
in Congressional legislation that would help with marketing and 
outreach to local elected officials to help provide a multi-
year funding source for any new corridor service. To get all 
the states to work together takes time. And that type of 
funding is about $2 million per state. It does no good to 
provide it for one year or if any one state drops out, any new 
service could fail.
    We would appreciate any support on New Orleans to Baton 
Rouge, we think that is a very important evacuation route. The 
State of Louisiana, Louisiana Recovery Authority, the City of 
New Orleans are all behind that. We need the same kind of 
focused review east of New Orleans to help remove people out of 
harm's way during time of emergency situations.
    Thank you.
    Ms. Brown. Thank you. Thank you very much. And I have got 
to tell you, I am excited about the possibilities of these 
states coming together--Louisiana, Mississippi, Alabama and 
Florida--and I think you are going to have to put in Texas 
also, as a regional transportation area to move people out of 
harm's way and also it would be an economic engine. So it is 
just where we need to go. And I am a 100 percent supporter of 
Amtrak, I have held it together along with all my other 
colleagues, because there is a lot of talk but when we actually 
have to put them on board, Amtrak has a lot of support from the 
House and the Senate.
    But the question is, you know, for example, how we are 
going to move forward in this region. I would love to see 
Amtrak--I have talked to the board, I have talked to the board 
members--I would like to see them take the lead in providing 
that service. But I am willing to do whatever I have to do to 
get those services back up. If it means somebody else doing it, 
we will just have to do what we have to do, because, you know, 
when we look at the fact that an airline ticket is $700 from 
Jacksonville to New Orleans, people would much rather do the 
train and you see that there are over three million people 
coming into New Orleans. I mean we are at the economic hub. If 
you look at New Orleans, Mobile, Jacksonville, Orlando, Miami. 
I mean it is the future.
    And I think--for two reasons. One is because it is an 
economic engine and, two, it will be in place to move people 
out of harm's way. So I need you all to think about it as we do 
the reauthorization of--last year, it was TEALU, five years 
ago, ISTEA, I do not know what it is going to be--who it is 
going to be named after, but I am looking to have major say-so 
as far as what we are going to do as far as Amtrak, what we are 
going to do as far as rail completely. I mean we have the best 
freight rail service in the world. Everybody comes and takes a 
look at our rail service and you all have done a good job on 
that. But then we are the caboose when it comes to passenger 
rail, and we do not use cabooses any more. That is because we 
have not put the investment into passenger rail.
    Fifty years ago when Eisenhower started out with the 
system, you know, the highway system, that was wonderful. But 
now we are ready for something new, something innovative. We 
have got to think green, we have got to think about reinvesting 
in our infrastructure. And to me, this region should be a major 
part of the start.
    There are several questions. I could start with you, Mr. 
Moller, to ask you about the freight, because that is part--you 
know, the freight has the right of way, and they were 
discussing what happens during an emergency. Is there any kind 
of agreement. But more than that, I guess in the future, 
future, how do we separate those tracks so that we can have 
dedicated tracks for passenger rail. You know, that is the 
ultimate. And when people--I hear some of my colleagues say 
well, you know, it needs to pay for itself. No mode of 
transportation pays for itself--nothing. It does not pay for 
itself. Nowhere in the world does it pay for itself--nowhere.
    So with that, if you want to answer that question, we can 
start with you, sir.
    Mr. Moller. Well, Madam Chairman, you have kind of answered 
it already, but I will add a little bit, if I may.
    Ms. Brown. Just say it a different way.
    [Laughter.]
    Mr. Moller. No, I meant that in a complimentary sense 
because I am pleased to hear you recognize the freight network.
    We have a history of collaboration in times of emergency 
and so forth. I mean Dr. Bertini talked about the Trinity 
system that went down to help people out in Houston and so 
forth. You know, we are constantly faced with different 
challenges. We have got a network out in Oregon that is out of 
service because of a gigantic mud slide right now. So we are 
constantly dealing with these kinds of situations that require 
immediate attention and so forth.
    Obviously the ultimate solution definitely for higher speed 
operations is to have a dedicated separate right-of-way where 
possible. And that is the model that is used in Europe. You 
know, many people like to talk about the one in France, for 
example. Except in terminal areas, it has its own dedicate 
right-of-way and that is the only way it can reach those kinds 
of speeds and still maintain the kind of safety they have 
there.
    I hope that has been responsive to your question.
    Ms. Brown. I will have some follow up question. But you 
heard about my vision, Mr. Phelps?
    Mr. Phelps. Yes, and I would----
    Ms. Brown. I just want to know do you all want to play with 
me or do I have to find somebody else?
    Mr. Phelps. Your words are completely refreshing to us. As 
a person who has worked at Amtrak for over 30 years, I cannot 
tell you the frustration that we feel. We have got some great 
employees, we have got people----
    Ms. Brown. Oh, no question.
    Mr. Phelps. --that are ready to deliver the service if we 
can get the resources. But having year-to-year funding and not 
knowing what you are going to have from one year to the next 
does not allow you to plan. And railroads, by their very 
nature, are very capital intensive and we need capital for 
rolling stock, for locomotives and cars, stations, the track 
and signal infrastructure.
    Ms. Brown. Bridges.
    Mr. Phelps. Bridges, absolutely. And for that to happen, 
there is going to have to be--we have to have more than 800 or 
900 million. I mean that is a shutdown figure for us. And 
thanks to you and other Members of Congress and the Senate, we 
have been able to at least get enough to limp along, but that 
is just not letting us grow. We need to grow. We are capable of 
delivering a world class service if we can just get some decent 
funding. You know, that is our critical problem right now.
    So I would encourage--and I will take your message back to 
our President Mr. Kummant, that you would like to see Amtrak 
take more of a lead in this. But our lead, of course, also has 
to be done jointly with Members of Congress because we have got 
to have some type of funding or at least a dedicated source of 
funding, as Ms. Parsons was talking about earlier, in order to 
make this happen. But we are ready and willing to walk with you 
on that.
    Ms. Brown. That is great, I mean that is good.
    Someone else want to respond to that, the vision question, 
before we move on?
    Ms. Parsons.
    Ms. Parsons. I do believe that our country needs that 
larger vision in order to move this forward, for day-to-day 
service, for all the reasons why rail is a wonderful 
alternative mode of transportation and for hurricane 
evacuation. We are really missing a comprehensive approach to 
rail in the U.S. and I think that your Subcommittee could help 
turn that around.
    Thank you.
    Ms. Brown. Mr. Jefferson.
    Mr. Jefferson. Thank you, Madam Chairwoman.
    Mr. Phelps, let me ask you this question. You describe in 
your testimony the essentials that Amtrak will offer in an 
emergency situation, or at least what the last year's plan 
involved. What would you ideally like to see in a contract with 
FEMA for 2008 that would add or be different from what you had 
in 2007?
    Mr. Phelps. I think basically the plan that we formed with 
FEMA in 2007 was strictly more or less based on the actual 
capacity that we had in New Orleans in terms of equipment. I 
think having a national plan, to me, is a good idea to have a--
we need to have a more organized, orchestrated approach to 
emergencies that can occur anywhere in the country. And I think 
a lot of people do not know, but in times of war, Amtrak 
becomes a part of the Department of Defense and we move 
troops--you know, there are lots of things that we do that 
sometimes are not always thought about by the general public. 
But I really do think that we need to have more equipment. We 
are equipment constrained right now and that is the only 
limiting factor that we have in terms of being able to evacuate 
larger numbers of people than we can now.
    Mr. Jefferson. The plan was also restricted to Memphis 
because that is where you have passenger service now. But if 
you could improve your 2008 plan so you could go to other 
destinations, that would require some cooperation from some of 
the freight lines?
    Mr. Phelps. That is correct. We would need----
    Mr. Jefferson. But I feel that would be more useful than 
just going to one destination, is that correct?
    Mr. Phelps. Absolutely. We would like to have multiple 
destinations because you need to be able to deploy according to 
where the weather is tracking. In some cases, we may want to go 
west toward Baton Rouge and in other cases we may want to go 
north or we may want to even go toward Meridian. But we have to 
have the flexibility.
    And I do not think it is really a bad idea for FEMA to have 
the jurisdiction, but I think we really need to have a 
comprehensive plan. And the freight railroads, we really have 
gotten cooperation in times of emergency. I will have to say 
that both the KCS and the Canadian National were very 
cooperative with us in terms of allowing trains to have 
priority that had evacuation. They are governed by problems 
that they have with crossing gates that might get blown down 
and things that might restrict the speed of the train. But they 
will give the train priority once we are out and running.
    Mr. Jefferson. Mr. Moller, in connection with that, what 
special dispensations or what special support, if any, is 
needed to help Amtrak do a better job and reach more 
destinations in case of national emergencies? I mean what more 
can the freight carriers do to make this work even better than 
perhaps it is working now?
    Mr. Moller. Well, Congressman, I guess as you heard, there 
has been pretty good cooperation. I guess I would like to go 
back to the FEMA planning. We heard it in the earlier panel 
this morning and some of us here just now. There are many, many 
logistical issues involved with changing a destination. It is 
not as if you are on a bus and instead of going east on the 
interstate, we will go west today. There are many federal 
regulations governing licensing of the locomotive engineers, 
for example, about being familiar with various territories and 
so on. You know, I do not want to muck up the conversation, 
but----
    Mr. Jefferson. I want you to understand my question is not 
so much directed at can you do more. What would be necessary 
for you to do more? I assume you want to do as much as you can. 
I assume you are cooperating with Amtrak now, as has just been 
testified to.
    Mr. Moller. Uh-huh.
    Mr. Jefferson. But if you could, in an ideal world, find a 
way to do more than that, how could that work and keep--just 
for me to know all the things you are talking about--how can we 
just do more? We want to be able to move as many people as we 
can as fast as we can. So that is why I asked the question.
    Mr. Moller. Well, I guess it gets back to the idea of 
capacity in that case. You know, imagine, if you will, that we 
have a weather situation coming here and obviously we have got 
passengers who want to get out of town. There is obviously 
freight traffic we want to get out of town as well, tank cars 
or something along those lines, and so, you know, in many 
routes we are single track with sidings every so often. And you 
can imagine trying to move highway vehicles on a one-way street 
when you are trying to go the opposite direction, you know, 
people ducking out of the way and so on. So I think capacity is 
the issue that comes before me at the moment.
    Mr. Jefferson. Ms. Parsons, you talked about Jacksonville 
which gave you a minute or so more to talk than everybody else 
did.
    Ms. Parsons. Thank you.
    Mr. Jefferson. But I want to ask you about the Sunset 
Limited east of New Orleans, about the potential benefits you 
see to it, about obstacles to its restoration, and what 
limitations exist to the transportation vision you have for the 
area that require restoring the service in order to realize 
that?
    Ms. Parsons. Well, our nation is embarking upon a new rail 
act and within it, it has funding and new criteria to evaluate 
priorities for the nation in terms of where investments will be 
made across the country. And in my testimony, I outline within 
that rail act a couple of places that I think will work against 
long distance trains, particularly the Sunset Limited to the 
east of New Orleans and potentially the Sunset west of New 
Orleans, simply because it was one of the poorest performing 
trains, not because of Amtrak but because it was the one 
transcontinental train that ran across the country from west 
coast to east coast with multiple stops and it had accumulated 
delays associated with it. So once a train misses its time 
slot, it is not necessarily guaranteed it all the way across 
the country.
    Mr. Jefferson. A little more specific with respect to New 
Orleans' recovery and the effort being made now to recover, how 
essential is the restoration of the Sunset Limited, that the 
Mayor talked about this morning.
    Ms. Parsons. Well, I think that it has great potential to 
provide--be an evacuation service for all those small cities. 
There are 12 cities between New Orleans and Jacksonville that 
are no longer served, that have no rail service at all. I think 
that it has the potential to remove all of those people.
    We had probably somewhere between 11 and 12 percent of all 
households did not have cars in those cities. New Orleans, by 
far, had the largest number of households without cars. So 
there is a need and it could provide that with early planning 
to get those people to a train station and move them to New 
Orleans or Jacksonville for connection to other services.
    Mr. Jefferson. Mr. Thomas, in your testimony, you state 
that a rail evacuation plan must address a means of getting the 
transportation disadvantaged to a train station for the 
evacuation. Would you describe what you mean by that and what 
steps you think ought to be taken to address this issue?
    Mr. Thomas. What I was talking about there, sir, is that 
the intercity rail is strictly that piece. You are removing it 
from this station, in this example, to Memphis perhaps. You 
have to bring these passengers from their various locations to 
this place where they can get on the Amtrak train. And that is 
going to involve mass transit. In the environment where you 
have perhaps people with their personally owned vehicles trying 
to also leave town, it is going to be perhaps somewhat chaotic 
within the city because people are trying to move around. So 
you would have a comprehensive look at identifying where these 
people live, what their capabilities are to move, that you have 
the capacity to bring them from their homes or care facilities 
where they reside, and bring them to this central place where 
they can be documented and then put on the train for 
transportation.
    So in looking at the use of rail as part of an evacuation 
program, there is an upfront part of this which I think is 
crucial to make it an effective program.
    Mr. Jefferson. In a national plan, do you see any role for 
the federal government in that or do you think that is a local 
issue?
    Mr. Thomas. I think it is both. It is always a local issue 
but there is a role for the federal government here with mass 
transit, absolutely.
    Mr. Jefferson. Mr. Bertini, you addressed this issue 
somewhat in your testimony. Could you make a further response 
to the question?
    Dr. Bertini. Specifically in moving people from their place 
of residence to the demarcation point?
    Mr. Jefferson. Talk about moving disadvantaged people to 
make sure they have a way to get out of town.
    Dr. Bertini. Well, that is primarily a local planning 
function that can identify locations where potential identified 
evacuees can be mustered and then brought to the train station 
and loaded onto the rail cars. And that is best left to the 
local authorities to identify those individuals most at risk.
    Mr. Jefferson. I understand that, but with respect to being 
able to support the move from one place to the other. The local 
authorities may identify who they are, but putting in a plan 
that is going to work at the end of the day, Mr. Thomas talks 
about mass transit, for us it is RTA buses and that sort of 
thing. Some other kinds of transportation might be available in 
other places, for us it is pretty much strictly reliance on bus 
transportation or some local school bus transportation.
    Dr. Bertini. Well, I speak from a position of disadvantage. 
I have not planned it, I have only done it. And we used buses 
and used the local bus system which was shut down in the case 
of Rita because of the impending storm. Almost all of those are 
ADA enabled and they were able to move large numbers of people 
to the station very quickly. So we used the regional bus 
authority.
    Mr. Jefferson. The very last thing, in his testimony, Mr. 
Cannon talked about challenges with the use of rail 
transportation as a means of evacuating people. He talked about 
different railroads on the track determining where the trains 
will go, evacuation law enforcement issues, special needs 
passengers and prepositioning of adequate capacity to support 
the evacuation. Are these challenges that can be overcome to 
make this a viable solution for us or do you think they are 
challenges that will just be run up against and we cannot 
really do all that much to work our way through them?
    Mr. Phelps. I think they are absolutely challenges that can 
be overcome and in fact in time honed over time to where we 
have it to the point where some things become automatic in a 
plan. I think one of the things that, you know, if we had 
service to Baton Rouge, if we had commuter service, I mean as 
Mayor Nagin alluded to, the more train service you have, the 
easier it becomes to evacuate, the more flexibility, the more 
choices you have to evacuate people.
    So when you are talking about commuter rail, you are 
talking about trains that are more frequent and they do not go 
as long a distance, but you have the higher frequencies and you 
have greater capacity to move people. So I think going from New 
Orleans to the west, Baton Rouge, and also New Orleans to some 
place like Gulfport, Biloxi. And perhaps that is the best way 
to try to incrementally build the train back to Florida through 
Pensacola, which I know Chairwoman Brown is deeply interested 
in.
    Mr. Jefferson. Anyone want to comment on that issue, 
overcoming the challenges Mr. Cannon talked about?
    Mr. Thomas. Sir, I would like to make a comment if I can. I 
mean I think if we make it a priority, we can do it. It is 
whether we decide as a nation that we want to make this a 
priority to have this available to our citizens. And if we 
decide to do that, like everything else we do in this country, 
we will do it.
    Mr. Jefferson. What does it take to make it a priority? 
What are you saying exactly?
    Mr. Thomas. It has got to come from the federal level that 
this is a mission that this nation will do. And the locals I 
think will adopt that as part of the collaborative process. But 
I think there needs to be leadership at the federal level to 
make it happen.
    Mr. Jefferson. Thank you, Mr. Thomas. Thank you, Madam 
Chairlady.
    Ms. Brown. Thank you, Mr. Jefferson.
    Mr. Bertini, what challenges did you encounter in 
coordinating and loading of the passenger trains out of 
Houston? What steps did you take to ensure that the evacuation 
would run as smoothly and effectively as possible? Do you 
believe that the federal, state and local governments have 
learned from your experiences and why did Amtrak approach you 
to assist in the loading of trains leaving Houston prior to 
hurricane Rita's arrival?
    Dr. Bertini. Well, the whole plan was extemporaneous and 
there were no federal authorities that I was aware of. My help 
was called because the only people available were the Amtrak 
station staff which was one person and one conductor. So the 
assistance was provided on an extemporaneous basis.
    The problems that arose were relatively minor and overcome 
on site. Some of the individuals arrived with motorized 
wheelchairs which are extremely heavy and had to be loaded, so 
we gathered up volunteers and picked it up. We positioned 
people in cars based on their special needs. So those with 
oxygen or wheelchairs went into one car where we could get them 
resources to observe them. Those that had other needs were 
placed in other cars. So a lot of the solutions were arrived at 
extemporaneously like you did with the situations that you were 
encountering.
    I think our experience has been studied and part of the 
planning process that the gentlemen before me and around me 
took in to consideration as they developed their plans.
    Mr. Phelps. Could I make a comment?
    Ms. Brown. Yes.
    Mr. Phelps. Dr. Bertini being approached was no accident. 
We have had a longstanding relationship with Dr. Bertini. He 
is--among his many other duties, he is the chair of the 
Galveston Railroad Museum. He has long been interested in 
having an evacuation route from Galveston out to Houston and on 
up north. And so we knew that he was rail savvy and that he 
brings a lot of capabilities in terms of rail and railroad 
knowledge. So he was the natural person for us to reach out 
because we did not have enough resources in that area. In some 
cases very little. We only have one train that operates tri-
weekly, which is another one of the problems with the Sunset, 
it does not operate daily and that contributes to the operating 
loss that we have on that train that Karen was indicating. But 
it is still well patronized. We have more people that ride that 
train knowing that it is only tri-weekly and they are going to 
have to pick the right day of the week to come back. So I think 
the spirit is there and I think the public, if you build it, 
they will come.
    Ms. Brown. What is the status of restoring service to the 
Sunset Limited from New Orleans east to Florida and what 
service do you have now and why has Amtrak not restored this 
service to this route?
    And Doctor, I just want to thank you. When I read your 
testimony, you are one of those unsung heroes.
    Give him a hand, guys. He did a good job.
    [Applause.]
    Mr. Phelps. Well, as you are well aware, the track for the 
CSX Railroad was really--track, signal, everything had to be 
rebuilt. During that time, we redeployed the Sunset equipment 
to either other routes or we increased the consist size of 
other trains for additional capacity. When the CSX restored the 
track, we had looked at the financials and the Sunset from New 
Orleans to Florida, the revenue that we were getting--because 
we have--I know you know that we are audited now by the DOT IG 
and we have to try to use the equipment in the places where we 
get the most return on investment and try to get the best 
benefit. And there were other routes that had higher density. I 
am not saying that it certainly is not important and I think 
that was our only transcontinental train and people really 
liked it. It provided a service, but from a fiscal standpoint 
also we had that issue.
    Ms. Brown. It is very complicated, it is not an easy answer 
to the question and it is not an easy question because part of 
the problem is--let me just give you an example. For three 
years, my colleagues and I have caught the train from 
Washington to Virginia. Well, the freight train has gotten in 
the way for the past three years and this year we were on time 
and on schedule, but you know, it is a problem when they arrive 
two and three hours late. Well, that has been part of the 
problem with the service, but it is coming from another area, 
the freight gets in the way. But if the train is arriving at 
2:00 in the morning, it does not work. I mean the service just 
does not work. You have got to have a time--in doing the 
studies, the key is that it is on time and you can count on it 
but it cannot be in the middle of the night.
    Mr. Phelps. Your point is well taken and that is one of the 
problems with a transcontinental train because while it might 
hit some areas in the right time slot, it is, by its very 
nature, going to hit some other ones that are not. So one of 
the things probably going forward in the future if we looked at 
restoring service would be to have an across-the-platform 
transfer to another train at a different time. It would connect 
to a train at a different time that would make more sense for 
the people along that route.
    But you know, right at this point, the corporation is still 
evaluating and I will certainly take back your comments to Mr. 
Kummant.
    Ms. Brown. Thank you.
    And I guess if he hears from you and from me, how often he 
needs to hear it.
    In your testimony, you used an evacuation plan from New 
Orleans to Memphis as the framework to discuss this issue. Has 
Amtrak worked on other communities to develop similar 
evacuation plans?
    Mr. Phelps. Well, I think that working with FEMA, you know, 
we looked at trying to evacuate the Houston area and we felt 
that perhaps some logical routes might be going north to Fort 
Worth, Texas for the Texas area. And then we did do some 
initial work with Jackson and for some reason we had some 
logistical issues and they decided that it would be better to 
go to Memphis. I cannot even remember exactly what those were 
but anyway, the whole point is for us to look at other viable 
alternatives.
    And the reason the Sunset is not probably the best train is 
because it is along the very coastal routes where the hurricane 
is most likely to hit. So we do not want to just evacuate to an 
area that could possibly be hit. Now if we know it is tracking 
to the west toward Houston, then we could evacuate going toward 
the east. So it is not to say that we should not have the train 
because you have to base it based on where the hurricane is 
tracking and I think that we have enough flexibility to choose 
more than just those areas.
    Ms. Brown. Mr. Moller, freight trains suffered 
infrastructure damage after hurricanes Katrina and Rita. How 
quickly did the railroads, your railroads, get the service 
restarted? And I know that I visited the Mississippi region and 
you all had a bridge that was completely taken out and you had 
it up and operational within days and I guess the community is 
still waiting and you have to go all the way around, it takes 
about two hours. So you know, it is an example of how the 
private sector got up and operational within days and the 
federal, us, we are still struggling to try to get that bridge 
up and it is causing people in that region to have to--we are 
talking about in the Mississippi area. Can you expound on that 
and tell me I am wrong?
    Mr. Moller. Well, no, I guess we are kind of proud of the 
performance of one of the railroads that restored service 
across Lake Pontchartrain, I think it was 14 days. That bridge 
was basically----
    Ms. Brown. Wiped out.
    Mr. Moller. --the deck was cleaned off. I mean it looked 
like a highway bridge, the track was completely obliterated. 
And they got barges out there, who knows where they got them 
from so quickly, but dragged the track out of the water, set it 
back on the bridge and put it back in service.
    Yeah, the bridge across the Bay St. Louis to the east, of 
course, literally was obliterated. There was nothing left 
except pilings coming out of the water. So, you know, there was 
extensive work required and that was one of the main reasons it 
took so long to get service back east of New Orleans. I think 
it was January, if I remember right, maybe somebody else would 
know.
    Ms. Brown. But I do not think we are up and operational 
yet.
    Mr. Moller. Yeah, I understand that some of the highway 
bridges also got horrific damage and some of them are still not 
back in service.
    Ms. Brown. Question. What, if any, contractual agreement or 
general understanding exists between the freight railroads and 
Amtrak in case of evacuation? That came up earlier. Can you 
answer that? And does the freight railroad make any special 
assistance to Amtrak in case of national emergencies?
    Mr. Moller. I will have to check with my colleagues to give 
you a full answer on that. I frankly do not know.
    Ms. Brown. Okay.
    Mr. Moller. But having seen it in action, I know that 
obviously there is collaborative efforts on both sides----
    Ms. Brown. I think it is.
    Mr. Moller. --to keep things going.
    Ms. Brown. See what you can find me in writing.
    Mr. Moller. Will do.
    Ms. Brown. Mr. Jefferson, do you have anything else?
    Mr. Jefferson. No.
    Ms. Brown. I have one thing for Ms. Parsons. And I have 
questions for you all in writing so I will get those to you.
    But Ms. Parsons, how would you improve intercity passenger 
rail service to help to mobilize the economy of the residents 
of Louisiana? And Mr. Phelps, how would you care to respond to 
that question also. But you first, Ms. Parsons.
    Ms. Parsons. Well, I think investment is needed. It needs 
to be a priority at the federal level and at the state level to 
get new service up and running. And in order for that to 
happen, we have to provide for the train speeds that are 
necessary for passenger rail. And that is simply a matter of 
dollars to get that in place, to replace bridges, close 
crossings, upgrade track and signals, train the crews and 
provide the equipment that is needed. It is all a matter of 
dollars and cents.
    I think everybody is willing and ready to go, Amtrak, for 
the Louisiana, New Orleans to Baton Rouge piece, has been 
working with the State of Louisiana. They know how much it is 
going to cost for the capital and the operations. It is just a 
dollar issue. So we are there.
    Ms. Brown. Mr. Phelps, you want to comment?
    Mr. Phelps. Well, I could not agree more. I think that we 
have to recognize that the freight railroads, you know, they 
are private companies and they are going to require investment 
if we are going to put traffic out there that is going to 
impede their ability to deliver service on time. And we are 
going to have to invest in additional sidings, in some cases 
double track, but all of that, sometimes people get sticker 
shock instead of being visionary and looking at the return on 
investment we can get. When we put that kind of money that is 
going to be needed, we can get a return on investment, because 
I do not know about everybody else, but we are tired of being 
viewed as a third world country when it comes to rail. It is 
just like when people go to Europe or Japan, even Taiwan, they 
have systems that people have recognized it is a quality of 
life issue and they have poured a lot of money into it and it 
is very successful and very appealing and people use it. And 
there is no reason why the United States should be anything 
different.
    Ms. Brown. Yes, sir, those are my closing remarks.
    Mr. Thomas, I do not want you to feel left out. I have one 
question for you too.
    You stated that a rail evacuation plan must address means 
of getting the transportation disadvantaged to the train 
station for evacuation. We saw that, it was just horrible. 
Please describe some steps that we can address the concerns and 
a long term public outreach campaign you also said is very 
important to the individual so they understand where to go and 
what to do.
    Do you want to further respond to that?
    Mr. Thomas. I will briefly, Madam Chair.
    The best laid plans, as they say, may not work if you do 
not have the ability to execute them. And in this case our 
customer of the plans, if you will, is the citizen. And the 
citizen has to have confidence that we have built a plan that 
is going to be effective. And part of that process is a public 
outreach campaign that we educate the public on what their role 
and responsibility is to be part of this evacuation. They have 
to understand and we have to help them understand and give them 
the tools to understand how they play in this equation. It is 
not simply the storm happens or the event happens and we tell 
them to evacuate. This is an ongoing process that I think in 
Florida has been done many, many years. When I lived in 
Florida, I remember having my hurricane kit in the garage ready 
to go if the county notified us we had to leave. I think we are 
talking those levels of understanding at the local level.
    I think the other challenge that we kind of have not talked 
about this morning is with the special populations we talk 
about, the elderly, the medically challenged that need some 
assistance. We have got the indigents that have no means of 
transportation that we need to support. I think there are other 
special populations out there too and this came up I think 
during Katrina, with registered sex offenders. How do you deal 
with that group that may be part of your population that you 
are evacuating. You do not want to compromise the security and 
safety of other citizens as well.
    So there are some complex issues here that are in the weeds 
of this question, this whole process, but we cannot overlook 
this detail as we put this together.
    But going back to an earlier question, I mean I think this 
is just a--I may look at things too simply sometimes, but I 
think if we decide to do this, we can do it.
    Ms. Brown. I agree with you, I wholeheartedly agree with 
you.
    And recently, thanks to the help of Mr. Jefferson, I passed 
my bill to include children in the planning of evacuation. It 
is amazing, after the hurricanes, we had evacuation plans for 
animals and pets, but we did not include children. And children 
are special needs and they are not mini-adults. And there are 
certainly things that we need to include in the planning. So 
that has been passed by the House and the Senate and signed 
into law. So that is the plan going forward.
    Mr. Jefferson, do you have any final statement?
    Mr. Jefferson. I would like to thank you for bringing the 
resources here to hold this hearing and for your longstanding 
special interest in New Orleans and our recovery and in the 
issues facing our hurricane evacuation. And of course, now with 
the issues of how we get our passenger transportation restored 
here fully, how to have an integrated plan that works for our 
region, and the commitment that you have to our people. It has 
been extraordinary to see some Member who really has her own 
district to worry about and all the other things around the 
country, who spends so much time and interest in our area. So I 
just wanted--if somebody was not here when I said it at the 
beginning, I want to say it again, we really do appreciate the 
support you have given us and the support you continue to give 
us in this region. And we look forward to your leadership on 
issues that come up now for major transportation bills, 
particularly rail transportation issues we are facing now. So 
thank you very much for bringing the Committee here, we 
appreciate it.
    [Applause.]
    Ms. Brown. Thank you, Mr. Jefferson. And when they have 
their meetings, I go to the meeting and I say I am your Member 
at large.
    In closing, I would like to give you all one minute for any 
additional things that you want to say before we discontinue or 
end the meeting.
    Mr. Phelps. I just want to say that Amtrak is ready, 
willing and able to walk in step with New Orleans, the State of 
Louisiana and the whole Gulf Coast region. We really want to be 
more and more of a good corporate citizen. Environmentally, we 
are probably one of the greenest forms of transportation. We 
offer a great alternative, and I think you have to have all 
three modes of travel--you have to have rail, you have to have 
airlines and you have to have your highways. But you need all 
three equally at least funded reasonably. And I think the 
growing awareness that I am seeing is encouraging because I see 
more and more Members of Congress recognizing that every day 
and we have had more support in both the House and the Senate 
than I have seen in years. So we look forward to the future.
    Ms. Brown. Thank you.
    Mr. Phelps. Thank you.
    Mr. Moller. Thank you, Madam Chairwoman and Representative 
Jefferson.
    I want to thank you again for holding this hearing and 
letting us get some of these thoughts on paper. It sounds like 
there may be a thought of putting together some kind of a 
planning exercise or something, based on some of the comments 
we have heard today. And I guess I would just encourage you as 
the legislative process proceeds to include all of the 
stakeholders. There are a lot of technical issues, as I just 
touched on a moment ago that can really make or break some kind 
of a plan. All of us want these kinds of things to succeed and 
we do not want to inadvertently overlook some critical point.
    Thank you.
    Ms. Brown. Thank you.
    Dr. Bertini. Congresswoman, I would like to add a personal 
note of thanks.
    Very rarely as a physician do we like to be pulled out of 
our operating rooms, as you have done with me today. But I have 
been tremendously impressed with your insight in pulling 
together people that really understand this problem, real 
railroad operators and individuals like myself that understand 
the populations at risk. You have helped restore my confidence 
in government.
    Ms. Brown. Thank you.
    Mr. Thomas. I want to thank you for the opportunity to be 
here and support the Committee in its work and look forward to 
providing continuing support as you go forward.
    Ms. Parsons. Well, thank you so much for holding this 
today. It has really been the first time I have had a forum to 
speak about our poor overlooked Sunset Limited east service and 
also to bring to light the New Orleans to Baton Rouge service.
    As we go forward, whatever you can do to help us put 
together a comprehensive approach to rail transport in the U.S. 
would be appreciated, including an investment at a magnitude 
that really makes a difference. I think that is what is 
missing. Everybody here, their hearts are in the right place, 
including Amtrak, who was our service provider for the Gulf 
Coast, they are our partners in crime as we go forward and we 
just want to make sure that the Gulf Coast gets the funding 
that it needs and deserves to move people out of harm's way.
    Thank you.
    Ms. Brown. Thank you. I had indicated that if someone in 
the audience that was not on panel one or panel two wanted to 
have an opportunity to have a one minute, this is your time 
before we adjourn. Is there anyone in the audience now that 
would like to have a word?
    [No response.]
    Ms. Brown. Well, let me just say thank you all for coming 
out. We are going to--the Committee is here from Washington. 
Tomorrow we will go visit the Army Corps and look at where we 
are as far as the Army Corps and what kind of work they have 
done in the area. And we will visit with the VA Hospital, 
making sure that is moving forward like it should. We are very 
interested in the region and doing all we can to make sure that 
it is everything that it once was and what it is going to be in 
the future.
    Thank you very much.
    [Applause.]
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






</pre></body></html>
